<html>
<title> - DEPARTMENTS OF VETERANS AFFAIRS AND HOUSING AND URBAN DEVELOPMENT, AND INDEPENDENT AGENCIES APPROPRIATIONS FOR 2003</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



                 HOUSING  AND  URBAN  DEVELOPMENT,  AND

                  INDEPENDENT AGENCIES APPROPRIATIONS

                                FOR 2003

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS
                             SECOND SESSION
                                ________
            SUBCOMMITTEE ON VA, HUD, AND INDEPENDENT AGENCIES
                   JAMES T. WALSH, New York, Chairman
 TOM DeLAY, Texas                    ALAN B. MOLLOHAN, West Virginia
 DAVID L. HOBSON, Ohio               MARCY KAPTUR, Ohio
 JOE KNOLLENBERG, Michigan           CARRIE P. MEEK, Florida
 RODNEY P. FRELINGHUYSEN, New Jersey DAVID E. PRICE, North Carolina
 ANNE M. NORTHUP, Kentucky           ROBERT E. ``BUD'' CRAMER, Jr., 
 JOHN E. SUNUNU, New Hampshire       Alabama
 VIRGIL H. GOODE, Jr., Virginia      CHAKA FATTAH, Pennsylvania     
 ROBERT B. ADERHOLT, Alabama        
                                    
 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
          Frank M. Cushing, Timothy L. Peterson, Dena L. Baron,
         Jennifer Miller, and Jennifer Whitson, Staff Assistants
                                ________
                                 PART 1

              NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

                              <snowflake>

                                ________
         Printed for the use of the Committee on Appropriations
                                ________
                     U.S. GOVERNMENT PRINTING OFFICE
 81-497                     WASHINGTON : 2002





                      COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio                  DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California             JOHN P. MURTHA, Pennsylvania
 HAROLD ROGERS, Kentucky             NORMAN D. DICKS, Washington
 JOE SKEEN, New Mexico               MARTIN OLAV SABO, Minnesota
 FRANK R. WOLF, Virginia             STENY H. HOYER, Maryland
 TOM DeLAY, Texas                    ALAN B. MOLLOHAN, West Virginia
 JIM KOLBE, Arizona                  MARCY KAPTUR, Ohio
 SONNY CALLAHAN, Alabama             NANCY PELOSI, California
 JAMES T. WALSH, New York            PETER J. VISCLOSKY, Indiana
 CHARLES H. TAYLOR, North Carolina   NITA M. LOWEY, New York
 DAVID L. HOBSON, Ohio               JOSE E. SERRANO, New York
 ERNEST J. ISTOOK, Jr., Oklahoma     ROSA L. DeLAURO, Connecticut
 HENRY BONILLA, Texas                JAMES P. MORAN, Virginia
 JOE KNOLLENBERG, Michigan           JOHN W. OLVER, Massachusetts
 DAN MILLER, Florida                 ED PASTOR, Arizona
 JACK KINGSTON, Georgia              CARRIE P. MEEK, Florida
 RODNEY P. FRELINGHUYSEN, New Jersey DAVID E. PRICE, North Carolina
 ROGER F. WICKER, Mississippi        CHET EDWARDS, Texas
 GEORGE R. NETHERCUTT, Jr.,          ROBERT E. ``BUD'' CRAMER, Jr., 
Washington                           Alabama
 RANDY ``DUKE'' CUNNINGHAM,          PATRICK J. KENNEDY, Rhode Island
California                           JAMES E. CLYBURN, South Carolina
 TODD TIAHRT, Kansas                 MAURICE D. HINCHEY, New York
 ZACH WAMP, Tennessee                LUCILLE ROYBAL-ALLARD, California
 TOM LATHAM, Iowa                    SAM FARR, California
 ANNE M. NORTHUP, Kentucky           JESSE L. JACKSON, Jr., Illinois
 ROBERT B. ADERHOLT, Alabama         CAROLYN C. KILPATRICK, Michigan
 JO ANN EMERSON, Missouri            ALLEN BOYD, Florida
 JOHN E. SUNUNU, New Hampshire       CHAKA FATTAH, Pennsylvania
 KAY GRANGER, Texas                  STEVEN R. ROTHMAN, New Jersey    
 JOHN E. PETERSON, Pennsylvania
 JOHN T. DOOLITTLE, California
 RAY LaHOOD, Illinois
 JOHN E. SWEENEY, New York
 DAVID VITTER, Louisiana
 DON SHERWOOD, Pennsylvania
   
 VIRGIL H. GOODE, Jr., Virginia     
                                    
                 James W. Dyer, Clerk and Staff Director

                                  (ii)




 
DEPARTMENTS OF VETERANS AFFAIRS AND HOUSING AND URBAN DEVELOPMENT, AND 
              INDEPENDENT AGENCIES APPROPRIATIONS FOR 2003

                              ----------                              

                                         Wednesday, April 17, 2002.

             NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

                               WITNESSES

SEAN O'KEEFE, ADMINISTRATOR
RICHARD BECK, DIRECTOR OF RESOURCES ANALYSIS DIVISION, OFFICE OF THE 
    COMPTROLLER
FREDERICK GREGORY, ASSOCIATE ADMINISTRATOR FOR OFFICE OF SPACE FLIGHT
GREGORY RECK, DEPUTY ASSOCIATE ADMINISTRATOR FOR AEROSPACE TECHNOLOGY
ED WEILER, ASSOCIATE ADMINISTRATOR FOR SPACE SCIENCE
MARY KICZA, ASSOCIATE ADMINISTRATOR FOR BIOLOGICAL AND PHYSICAL 
    RESEARCH
MARY CLEAVE, DEPUTY ASSOCIATE FOR EARTH SCIENCE (ADVANCED PLANNING)

                       Chairman's Opening Remarks

    Mr. Walsh. The subcommittee will come to order. This 
morning we would like to welcome Mr. Sean O'Keefe, the 
Administrator of the National Aeronautics and Space 
Administration for the committee's hearing on the NASA budget 
and programs.
    The fiscal year 2003 budget request for NASA is $15 
billion, essentially the same as the fiscal year 2002 
appropriation. I am disappointed to see that the Administration 
did not choose to give its premier research and development 
agency a budget increase this year. While NASA has been able to 
do more with less for many years, there comes a point where fat 
is no longer able to come out of programs and meat is being 
lost. I fear that NASA may fast be approaching this point, if 
it has not already been passed.
    The fiscal year 2003 budget includes a number of program 
changes compared to 2002. Two outer planet missions have been 
canceled: Europa and Pluto-Kuiper. A number of earth science 
missions have been placed on hold for up to 1 year, and new 
initiatives are proposed for nuclear propulsion technology, 
space radiation research, and research on multigenerational 
organizations in space.
    We look forward to asking you a number of questions 
regarding your budget proposals after you present your 
statement.
    I did have the pleasure of joining Administrator O'Keefe in 
Syracuse when he made a statement of his vision of the future 
of NASA. It was a very interesting statement and generated a 
lot of interest and a number of questions, and hopefully we can 
flush some of those out today.
    Before you begin sir, I would like to yield to Mr. Mollohan 
for any remarks he may have.

                 Congressman Mollohan's Opening Remarks

    Mr. Mollohan. Thank you, Mr. Chairman. I want to join you 
in welcoming Mr. O'Keefe before the subcommittee today. 
Although this is not his first time before us, it is his first 
time testifying as Administrator. So welcome, Mr. 
Administrator.
    Mr. O'Keefe. Thank you.
    Mr. Mollohan. I am pleased that this appearance follows on 
the heels of your recent speech at your alma mater, Syracuse 
University's Maxwell School. In that speech you identified many 
of the very reasons that so many people are NASA supporters, 
the larger-than-life goals, the ingenuity and efforts to 
achieve them, and the potential for great leaps forward in 
knowledge and progress. I know that you have devoted much of 
your time as Administrator to understanding the various 
enterprises that you oversee and to further installing 
management and budget procedures, but it is also good to hear 
your long-term vision.
    The budget submission before us does not do much to address 
concerns that this Agency is underfunded. It proposes an 
increase of less than 1 percent, moves us no closer to a fully 
operational International Space Station, and assumes reduced 
shuttle flights. That is disappointing.
    That being said, I appreciate having a fresh point of view 
on the problems that we confront. Difficult decisions have to 
be made and your input on priorities is certainly welcomed. I 
look forward to your testimony and the opportunity to talk to 
you about some of the decisions that you have made in putting 
the budget together.
    Thank you, Mr. Chairman.
    Mr. Walsh. Thank you, Alan.
    Please proceed.

               Administrator O'Keefe's Opening Statement

    Mr. O'Keefe. Thank you, Mr. Chairman, Mr. Mollohan; thank 
you for your opening statements.
    First and foremost, Mr. Chairman, thank you again for the 
opportunity to be with you last week in Syracuse. That was a 
tremendous homecoming and the chance to spend a little time at 
S.U. Was a real treat in and of itself, but your patience in 
working your way through the statement on the mission 
objectives and how we are revising those was most appreciated. 
And your reference to those, Mr. Mollohan, was much 
appreciated.
    To spare you that complete rendition again, having 
patiently sat through it as you did last week, if you would 
permit me, I would like to submit a statement that summarizes 
many of the highlights of that particular statement last 
Friday.
    Mr. Walsh. Without objection.


                     HUBBLE SPACE TELESCOPE MISSION


    Mr. O'Keefe. Thank you, sir.
    It has been a busy month at NASA. There has been an awful 
lot going on, a lot of activities that we have been engaged in, 
and while we are certain to touch on the questions that you 
have addressed in your opening comments, I want to just take a 
moment to talk about some of the things that are going on right 
now. The STS-109 crew, which was the crew that serviced the 
Hubble Telescope last month, arrived just about this time last 
month and are now in town this week, making visits around.
    We are going to stop by and see the President this 
afternoon. His interest in the activities there and the results 
of that particular mission were heightened; so as a 
consequence, he wanted to meet the extraordinary folks that 
were able to pull off some of the amazing feats they did on 
that particular mission.
    It was an historic five spacewalks that were accomplished 
to service and upgrade the Hubble Telescope in a way that is 
now going to add about a factor of 10 to its capabilities 
which, is an extraordinary feat given the fact that just in the 
last year the activities and the imagery coming back from 
Hubble have effectively rewritten the astronomy books. It is 
astounding to see some of the results that have come from that 
for actually an asset that was 10 years ago roundly criticized 
as an absolute failure; and after its upgrade that was 
conducted in 1993, this is now the fourth servicing mission 
this was conducted on it.
    One of the guys who was engaged in that activity is with me 
here today, Astronaut John Grunsfeld, who is the one gentleman 
wearing a suit that is a little different from the rest in the 
room, and his achievements and accomplishments--he was one of 
the four astronauts who conducted the spacewalks during the 
course of that activity just conducted again last month, and 
again upgraded the quality of that particular instrument in a 
way that we are fully expecting, when we start seeing the 
imagery screen back from it, is going to again rewrite the 
astronomy books in a way that is really quite remarkable.
    Among the characteristics of all the folks who were engaged 
in that mission, and so many others that were doing regularly, 
is a wide range of background and experiences that all of them 
brought to the occasion. There was a marine mammal research 
expert, a couple of physicists, astrophysicists, a variety of 
different backgrounds. John Grunsfeld's experience is, he is a 
doctorate and an astronomer by background. This is the second 
mission he had to Hubble Telescope, conducting a previous one 
in 1999; right, John? Yes. And as a consequence, he had a lot 
of familiarity with it, but as it turned out the greatest 
attribute that John Grunsfeld brought to the occasion sometimes 
turns on the simplest things. All the control panels on the 
Hubble Telescope are on the left-hand side of the telescope. 
The guy is a left-hander. So we call him the ``southpaw 
savant'' around NASA nowadays, because he was able to conduct 
the calibrations necessary and conducively rather than the rest 
of us who had to reach around and do a contorted act in order 
to make that work.
    So it is amazing achievements on the part of the people 
that we see on TV when they are engaged in these particular 
activities, I think deserves recognition and heralding 
sometimes to realize these are not easy missions at all.


                              STS-110 CREW


    A segue from that to the current mission that is underway. 
STS-110 crew is on the International Space Station as we speak. 
There are 10 astronauts in space, or actually 9 astronauts and 
1 cosmonaut. Yuri Onufrienko is the Russian cosmonaut who is 
commanding the expedition for Mission now, along with Navy 
Captain Dan Bursch and Colonel Carl Walz, and joined now by 
several astronauts from the STS-110 missions as they begin the 
next stages of installing and assembling the pieces to the 
International Space Station. That is a very complicated set of 
maneuvers, every bit as difficult as the very fine maneuver or 
calibration effort that Scott Altman and John Grunsfeld in 
their mission accomplished last month. This one is equally so, 
in that the central pieces of the International Space Station--
and there is a graphic that I asked Tim Peterson to pass around 
here to the members--the central section of the International 
Space Station you see in red is the part that they are 
installing right now, and completed that after their fourth 
spacewalk yesterday. They will be heading back home and 
hopefully arrive on Friday, but in the course of that time in 
the last several days have been installing that.


                           U.S. CORE COMPLETE


    So we are now about on the order of magnitude of halfway 
through what is described as U.S. Core complete, the essential 
pieces of the core componentry of the International Space 
Station that we are responsible for as part of the 16-nation 
partnership that constitutes the International Space Station. 
We have got 10 missions to go before that particular 
configuration is finished, and that won't be accomplished until 
early '04 by the current scheduling we are looking at now.
    So it is a very ambitious set of flight arrangements 
necessary, and assembly, in order to make that particular 
configuration that you see in the green elements to be added as 
U.S. Core complete to be finished. Every one of these 
particular missions requires absolute unqualified success of 
the last mission. If there is any individual piece of that that 
creates a complication or whatever else, it throws the entire 
schedule off. So it is in the finest traditions of the 44-year 
history of NASA, another example of the primary attribute that 
the Agency brings to the equation, which is large-scale systems 
integration challenges. And we are only building one of these, 
and you get to do it in a place that is 250 miles straight up, 
in an atmosphere where they are trying to assemble pieces while 
the thing they are assembling and themselves are traveling at 
18,000 miles an hour. This is no mean feat, and one that 
requires a lot of careful coordination in order to make it work 
right.
    So between now and the time that I described as being the 
accomplishment of what we project to be U.S. Core complete, or 
the core configuration of the International Space Station, we 
have got 2 years to go, 10 flights, every one of them has to be 
an absolute success in order to make that work, even to 
contemplate what may be an ultimate configuration that may be 
derived thereafter. So our sight right now is focused on 
meeting those milestones, meeting those 10 flights, installing 
the essential elements of U.S. Core complete in order to assure 
that that we can even engage in a meaningful discussion of what 
that longer-term projection would look like.


                              FLIGHT RATE


    To your point and observation, Mr. Chairman, the funds that 
are budgeted for fiscal year 03 as well as in the immediate 
years that we are projecting hereafter are estimated to be what 
are necessary in order to accomplish that. The flight rate in 
order to achieve that particular objective of 10 flights 
between now and early 04, if we get it exactly right, are 
budgeted and are intended to support exactly this 
configuration.
    After several meetings with the International Space Station 
program management team, to include just yesterday, I can 
confirm again that there is no further or any other flight 
configuration that would be necessary to support this 
particular objective. This is the most aggressive installation 
schedule that meets the engineering standards in order to raise 
the probability as high as we know how to, to establish a 
systems integration challenge that is necessary to achieve what 
is the U.S. Core complete configuration.
    Again, if it were not for the amazing accomplishments on 
the part of all the folks who take part in the actual 
installation effort itself, the challenge of getting it up 
there is no mean feat all by itself, but the effort they take 
in order to install all of this is quite extraordinary.
    Jerry Ross, who is aboard STS-110 right now, I look forward 
to welcoming him back as the astronaut with the most number of 
missions of anybody. He will have completed his seventh shuttle 
mission when he arrives on Friday, and just completed an 8-hour 
spacewalk 2 days ago, 3 days ago, and yesterday completed one 
that was over 6\1/2\ hours. That makes about his 10th or 11th 
spacewalk, I think, in the course of his career. So he has got 
the all-time record now for number of flights as well as 
engagement on this particular activity. So we found a seasoned 
vet to conduct the activity, to assure that this first 
essential component of the assembly for core complete was 
installed properly, and all the indications I got yesterday 
from the Mission Control team was it was done to perfection.
    So this effort is going on. We are now expecting 10 more 
like it in order to reach the configuration so we can have a 
more meaningful discussion on what the ultimate configuration 
will look like.
    With that, Mr. Chairman, let me thank you again for your 
hospitality last Friday and willingness to spend time not only 
at Syracuse University but at Fowler High School as we examined 
a couple of high schools' experiments that are going to go 
aboard STS-107 when it goes up in July. It is a research 
experiment, and I look forward to tracking the progress of that 
noble venture as well.
    Thank you for your indulgence.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                         SPACE STATION RESEARCH

    Mr. Walsh. Thank you. For those of you who were not there, 
it was delightful to see the Administrator interact with high 
school kids. He actually brought his own son along, who I think 
enjoyed himself as much as anybody did. And that is what 
inspires us, our ability to connect with young people. Somebody 
said that day--it may have been you--that what it is that seems 
to inspire or excite young people the most, are dinosaurs and 
space. And it really was fun to spend that time with those 
young people.
    Mr. O'Keefe. We fully intend to be proficient at the 
latter, not the former.
    Mr. Walsh. I think we have left those other ones behind, 
although they may be back with cloning. Who knows? They are 
working on a wooly mammoth right now.
    On the topic of the Space Station, the ability of 
scientists to conduct research in a unique environment, has 
always been the major selling point of the International Space 
Station. As such, one would have expected that a well-defined 
research program would have been developed well before the 
construction of the Space Station was begun, and that research 
plan would have driven decisions on facilities and capability.
    According to your statement, you have elected to establish 
a Research Maximization and Prioritization Task Force to assess 
how high-priority research objectives can be best met by the 
ISS within ``available resources''. I would like to ask you 
what you meant by ``available resources'', but I inferred from 
what I heard last week in your vision statement that the 
engineering task of putting this together was job one, that the 
mission--the ability to accomplish science would be directly 
affected by the ability to put this project together and make 
it work. So if you could give us an idea of what ``available 
resources'' are, and then we will talk a little bit about this 
construction project.
    Mr. O'Keefe. Sure. Thank you, Mr. Chairman. As usual, you 
cut right to the essence of the issue, which is this is an 
extraordinary capability. It is an amazing infrastructure that 
provides us an opportunity to do scientific research activity 
that frankly would not be possible were it not for this 
capability. We can't duplicate this here on Earth, and we have 
tried really, really hard to figure out ways to duplicate that 
microgravity kind of condition as well as the study of human 
effects and so forth that are provided.
    So with the reprioritization, or what the science panel has 
been asked to do is to focus on two things, and this is the 
context of the resource issue. I have asked very specifically--
and this is a group of nobel laureates and representatives of 
every scientific discipline we could assemble--to look through 
the vast array of scientific and research objectives that the 
National Academy of Sciences and others have talked about and 
written about for years of what they would like to see 
performed on Space Station, and asked them to establish a 
priority with two things in mind:
    First and foremost is to emphasize uniquely what that 
infrastructure is that they could utilize. If you can do it in 
your garage, if you can do it in a laboratory in the United 
States or anywhere around the globe, then let us do that there. 
Let us utilize this capability for those unique kind of 
qualifications that only the International Space Station brings 
to bear. If we are going to ask guys like John Grunsfeld that 
go there and spend 4 or 5 months of their lives working on 
this, it ought to be a purpose that is uniquely for that 
activity.
    The second one is that it ought to be for the opportunity 
for what they assess to be breakthrough kinds of research 
opportunities. Not something that is a curiosity, but something 
that may in turn yield some answers in ways that could inform 
the research agenda.
    And what we have advised them on the resource end of the 
equation is to say, do not feel confined by what you think the 
configuration of Station may look like, don't be confined by 
what you think the resource requirements would be. We want your 
honest scientific assessment, so that science drives what we do 
aboard Station, with those two priorities prominently in mind.
    Then, the engineering challenge that we have got to conduct 
concurrently, we can meet that configuration and see if we can 
reconcile relative to that priority list.
    So I think we are going about it in a way that should yield 
that particular set of priority answers from the scientists and 
that group of experts by this June, and then we can array or 
reconfigure as necessary what the payloads will be to maximize 
the use of Station once we have achieved U.S. Core complete in 
early 2004.

                         MICROGRAVITY RESEARCH

    Mr. Walsh. So the task force in their deliberations and the 
engineering challenge are ongoing simultaneously, with the idea 
that once they are completed you will have a platform and a 
plan to do science?
    Mr. O'Keefe. Absolutely.
    Mr. Walsh. It is safe to say not much science is going to 
occur over the next couple of years.
    Mr. O'Keefe. No. Actually there are a variety of things 
right now. Let me give you a quick example. In May, on the STS-
111 flight, there is a specific research product that has been 
sponsored by Fisk Johnson, as in Johnson & Johnson, to 
specifically look at what the opportunities may be for 
regeneration of liver cells. In a microgravity condition, they 
have determined and have put private capital to this particular 
experiment to see what the effects will be and are looking 
forward to studying that. The best we can do in a laboratory 
condition here on Earth is to create and establish a 
regeneration prospect that lasts no more than a day or two. If 
we use a bioreactor, which is the closest thing we can do here 
on Earth to duplicate, or replicate I should say, the 
microgravity condition, we get maybe a month's worth, at best, 
if they really maximize it.
    In a microgravity condition like what we see on 
International Space Station, as the current configuration 
exists today with the three astronauts that are aboard, we can 
conduct that experiment and form that debate and provide the 
research necessary to potentially yield that kind of medical 
breakthrough that would be historic. So just imagine what we 
could do once we get to the point where the configuration is 
fully adaptable to the full range of research experiments that 
the science panel may yet come back with.

                               CREW SIZE

    Mr. Walsh. Given the way that you have described this going 
forward the next 2 years, does that statement imply that any 
research plan will be limited by scale of a three-person crew 
when the facilities are available at core complete?
    Mr. O'Keefe. That is another proposition that we are really 
challenging at this stage. The first one is that, again, the 
science-driven agenda that we have talked about is 
unconstrained by what configuration of crew size may be. I have 
asked them, please, don't put a size 10 foot into a size 5 shoe 
and, as a consequence, make your judgment about what you think 
is necessary for the science and research objectives. And then 
we will determine what the appropriate crew size is based on 
that and other factors in order to make a determination of 
where we are going to go here.
    Between now and then, though, I don't see that the 
configuration is that constraining for the kinds of near-term 
objectives we have in mind. Part of what we are learning here 
in the 18 months that we have had of continuous presence, 24 
hours a day, 7 days a week, in space that International Space 
Station has offered us, this fourth expedition crew now aboard, 
is what the conditions are like just living there. And what 
they are coming back with, I think, in terms of informing the 
research agenda on that front is the early stages of what is 
necessary. So in this interim period of time, I don't see this 
as being wildly constraining.
    What we are constrained by is, I think, an assessment of 
how much crew time does it take in order to maintain Space 
Station, keep the lights on, keep things moving, monitor what 
is necessary, all of that. And that works out to be on the 
order of magnitude, I am told by the astronaut corps, about a 
100 hours a week in order to actually operate the configuration 
of Station to keep the system running. So you can extrapolate 
from that what time may be available or active or whatever else 
in order to conduct scientific experimentation. And what the 
science folks are looking at within our biological and physical 
research directorates and so forth here in NASA headquarters is 
how do you minimize the time that requires astronauts' 
attention but also maximizes the very important effort that 
they, as trained science and research experts themselves, can 
lend to that particular objective? So we are trying to avoid 
backing into some number that may artificially configure us in 
terms of what the crew size may ultimately prove to be.
    Mr. Walsh. Thank you very much.
    Mr. O'Keefe. Thank you, Mr. Chairman.
    Mr. Walsh. Mr. Mollohan.

                          NASA BUDGET REQUEST

    Mr. Mollohan. Thank you, Mr. Chairman.
    Mr. Administrator, I know that you are reviewing all parts 
of NASA and you are engaged in study after study. Further, we 
have a Space Station Management and Cost Evaluation Task Force 
that is out there and it is coming forward with a lot of 
recommendations. But the overall budget request is scary in 
light of meeting NASA's overall mission.
    The request, I think, represents a less than 1 percent 
increase. The President's budget assumes a 2-point-something, 1 
or 2 percent of inflation. So your request is below inflation. 
How do you expect to meet NASA's missions with this kind of a 
budget request?
    Mr. O'Keefe. Well, the budget as presented is, in our 
judgment and the administration's view, what is required to 
carry out the program that we have advanced and proposed to the 
Congress, and it reflects I think a very careful first set of 
steps that we have made here to be very selective, to select 
priorities of what we are going to engage ourselves in doing, 
and to choose carefully about where we think the maximum medial 
that only NASA could perform has the opportunity to provide 
those dividends. So as a result, what is involved I think in 
the budget request right now is adequate to meet those 
particular program requirements.

                          PROGRAM REQUIREMENTS

    Mr. Mollohan. What program requirements that we were 
committed to in '02 are being dropped out for '03 to meet this 
budget target?
    Mr. O'Keefe. Let me give you a more comprehensive 
assessment for the record, if you would, sir.
    Mr. Mollohan. Thank you.
    [The information follows:]

                      Budget Program Requirements

    NASA budget decisions are made on a program-by-program 
basis. Projects were cancelled or deferred because of cost 
growth, schedule delays, poor technical performance, changes in 
program needs or requirements, emergence of higher priority 
investments, or for other programmatic reasons--not to meet 
overall budget requirements. Program funding levels and 
projects reflect what NASA considers to be the optimum use of 
funds.
    NASA included the following projects in its FY 2002 budget 
that are not included in its FY 2003 request: Full-sky 
Astrometric Mapping Explorer (FAME) (cancelled due to greatly 
increased costs); Gossamer Spacecraft Technology (cancelled to 
pursue more broadly applicable technologies); and Europa 
Orbiter (cancelled due to greatly increased costs).
    In addition, the following projects were not included in 
NASA's FY 2002 request but were added to NASA's FY 2002 budget 
during the Congressional appropriation process, and are not 
funded beyond FY 2002 in NASA's FY 2003 request: Pluto/Kuiper 
Belt; X-38 (CRV); and Rotorcraft.

    Mr. O'Keefe. I would rather not wing it. But basically as I 
think the chairman described in his opening statement, some of 
the longer-term and farther-reach exploration objectives that 
we had planned or had considered a year ago we have throttled 
back on at this point, not because of a lack of funding; it is 
a lack of the technological capacity to achieve it.
    Just real quickly as an example, on the Pluto-Kuiper 
project, it is currently under review again by the National 
Academy of Sciences, and I fully expect they will come back and 
determine that it is a noble, useful mission to achieve. 
Exactly what rank of order they will put it in, I would not 
speculate at this point, but I guess it is going to be pretty 
high.
    Having said that, as much as it is a useful mission and 
there would be some very useful research to be derived from it, 
nevertheless we can't get there in any period of time that is 
reasonable to inform today's research science objectives. 
Beginning in 2003, if we started a program that would launch by 
as early as 2006, the earliest we could get to Pluto-Kuiper 
Belt at this juncture on that particular mission would be about 
2016, 2017. And during the course of that time, because of the 
limitations of the technology we have for propulsion, what we 
would get is about a 6-week pass-by that would provide imagery 
that is higher than what we could attain today. So we are 
betting 15 years on a 6-week mission that, by the time we 
actually arrive there, the agenda may have dramatically changed 
is my bet. Instead, what we have looked at is how do you take 
the limitation that exists not only for that destination but 
any other we could attain, Europa, Mars, no matter where, and 
think more in terms of how we focus on the power generation 
capacity to actually get there. Today, the harsh reality is we 
are basically traveling at speeds in space that roughly equate 
to the same speeds John Glenn flew at 40 years ago on 
Friendship 7. We really haven't progressed that much in terms 
of that capacity. So those are the kinds of examples of what 
the trade-offs are: Let us focus on how we are going to get 
there versus where we are going to go on projects.

                       TECHNOLOGICAL ACHIEVEMENTS

    Mr. Mollohan. Thank you. Let me congratulate NASA, and all 
of those who have been involved in the marvelous technological 
achievements as you have described them. It is absolutely 
marvelous and it is to be celebrated. I hear you are here 
celebrating the technology and engineering achievement.
    Mr. O'Keefe. And the people.
    Mr. Mollohan. And the people. And as I say, it is to be 
celebrated, but that is not an end in of itself. We don't 
declare victory having achieved that. The goal here from the 
beginning, and the justification for it as presented to the 
Congress, to those in Congress that argued very vigorously for 
this in the face of a lot of opposition, was we are going to do 
unique science. It almost sounds like you are reinventing the 
goal here, reinventing the justification for the Space Station, 
and saying if we achieve core complete configuration that 
somehow that is a goal.
    It is a milestone certainly, but it is a milestone to an 
end, not an end to itself. The end always has been, is today, I 
hope, scientific research. In order to achieve that, there were 
certain elements that had to be accomplished: crew return 
vehicle, a laboratory. I am wondering, are you rethinking these 
items? Are you rethinking the goal? The science panel that you 
have put together, do you anticipate their coming forward with 
justification for the Station, or maybe a better definition of 
the justification?
    This is a mark time budget request, obviously, and it is 
not getting us to the goal. It is really saying, at least for 
the time being, that we are going to declare victory with the 
core configuration.
    Mr. O'Keefe. If I have been inarticulate, Congressman I 
apologize for that, because we are in violent agreement on the 
proposition that the purpose of that capability, is to be for 
the science and exploration objectives, no doubt about it. What 
I am asking the scientific community to do now, and the panel 
that has been composed, is to list in priority order what they 
think are important objectives that utilize that capacity and 
are really going to yield findings that are going to be 
informing some breakthrough opportunities. That is what we hope 
for.
    Mr. Mollohan. We are in violent agreement and you are 
asking for a better definition of the science to be achieved?
    Mr. O'Keefe. Yes, sir.
    Mr. Mollohan. No matter what they come up with, you are 
going to need the crew return vehicle and the habitation 
module, aren't you?
    Mr. O'Keefe. Could be. Let me try it another way. I think 
again I have been inarticulate on this, and I apologize. The 
point is that we really can't speculate on what the ultimate 
configuration will look like until we get through this next 
stage. And the point is every one of these sequence steps have 
to work exactly right and then you get to look at the 
opportunity to expand to a habitation module, to the 
centrifuge, to a number of things that are all part of that, 
which I fully expect we are going to see as good options, all 
of which under the original plan and today's plan are part of 
the configuration being----
    Mr. Mollohan. Do you anticipate that after this review, the 
crew return vehicle, habitation module, will be a part of the 
Station----
    Mr. O'Keefe. The habitation module, the centrifuge, a 
number of different international partner contributions to 
this, we want to be able to facilitate the installation of 
those kinds of capabilities, but you can't even get there until 
we complete the core configuration.
    Mr. Mollohan. Of course, but you also can't get there 
without spending the money on developing them either.
    Mr. O'Keefe. We are doing that. I am sorry. I have been 
less than clear----
    Mr. Mollohan. You continue to say you have been 
inarticulate, but maybe I have been unable to hear you. So if 
you would bear with us, again, I don't see these elements in 
your budget.
    Mr. O'Keefe. The installation stage in which that would 
occur is beyond 04. It was under the original plan. What is in 
this particular configuration, what is in this budget right now 
are precisely the programs that were planned originally to meet 
the international partner agreements to achieve a configuration 
definition by 2006. You are exactly right. The milestone that 
must be achieved in order to make any of that possible is 
between now and early 04 to achieve that core configuration. 
Anything beyond that, you can't achieve it unless you make this 
work. The crew return vehicle is a different situation. I can 
talk about that separately. But in terms of all the other 
module sections and segments of what are required to look at 
anything beyond the core configuration, all of those are in 
frame right now. Our partners are proceeding ahead with each of 
the elements that are necessary to meet the international 
partner pieces of this, and our expectation is we are going to 
be successful at the core configuration which will adapt to all 
those cases, and that is fully budgeted. That is our intention 
right now. The crew return vehicle is a separate issue, again, 
and----
    Mr. Mollohan. We will get back to that. My time is up. 
Thank you, sir.
    Mr. O'Keefe. Thank you, Congressman. I appreciate your 
patience.
    Mr. Walsh. Thank you. Mr. Knollenberg.

                     POWER AND PROPULSION PROGRAMS

    Mr. Knollenberg. Thank you, Mr. Chairman. Welcome, Mr. 
Administrator. Glad to have you here.
    Mr. O'Keefe. Thank you sir.
    Mr. Knollenberg. I am glad you bring along all your talent, 
particularly that active talent, with John being in the front 
row there. Presumably he is going to have a part in this 
program, is he?
    Mr. O'Keefe. At your discretion, as always.
    Mr. Knollenberg. We can get to that point. I wanted to talk 
to you about something that you mentioned that I think tells us 
that we are at a point that we have to improve. You mentioned 
that we are still traveling at the same speed that Alan Shepard 
traveled at some 40 years ago. So a propulsion system beyond 
what we have today has got to be a concern of ours, and I know 
you are tackling that with respect to the Nuclear Systems 
Initiative. They say that the current chemical propulsion 
system limits the amount of fuel that we can carry. That is 
obvious. It also takes a longer period of time to get there. It 
relies on gravity assists from other planets, and once it gets 
to its destination it is typically out of power. That is not so 
good if we want to go beyond Mars, and I know that is the goal.
    I think you have got it in the budget, but I would like to 
hear you tell me what are the projected funding levels for this 
program in the future years. And you can be very brief about 
that, just so we have some idea what is coming.
    Mr. O'Keefe. Let me get the exact numbers for you here, but 
we are talking for the propulsion system, we are looking to 
dedicate $1 billion to that activity.
    Mr. Knollenberg. It has greatly decreased in the 05 
budget--or what budget?
    Mr. O'Keefe. In 2003 for the power and propulsion programs, 
we are looking at $195 million; through the next several years 
we are looking at $290, $302, $277 and up to $223 million by 
2007.
    Mr. Knollenberg. It is ratcheted up very quickly.
    Mr. O'Keefe. Yes, sir. This is the pacing item. You have it 
exactly right the way you describe it.
    Mr. Knollenberg. NASA and DOD work together on this, don't 
they?
    Mr. O'Keefe. We started our discussions with our friends at 
DOD on the civil reactors side as well as the naval reactors 
end of it, because it had a lot of design and operation 
experience over the course of the last 40-odd years; and we 
have begun that discussion in working that in tandem with them; 
yes, sir.
    Mr. Knollenberg. So you are not really working anything 
with them yet, you are just at a planning stage with them. Do 
you project the amount of money you can save in a spacecraft 
via the nuclear method?
    Mr. O'Keefe. I wouldn't want to speculate.
    Mr. Knollenberg. Is savings an issue? I know you are at a 
point where you have got to go to the next threshold.
    Mr. O'Keefe. Yes, sir.
    Mr. Knollenberg. But cost is obviously a concern, I know 
that; but since you have got to get there, what kind of 
opportunities are there to get there, in your judgment?
    Mr. O'Keefe. Well, it would be speculative on my part, but 
it is based on the speculation derived from the operational 
experience we have had in design as well as operation of 
nuclear systems that power submarines, aircraft carriers, all 
of that, and it has been dramatically declining. We have now 
achieved a capability today of designing reactors that will 
last the life of the vessel without refueling. That is pretty 
cost effective, and as a consequence if we can attain even 
close to that for a dramatically smaller item, our demands 
aren't nearly as big as that of a nuclear submarine. If we can 
achieve a design characteristic and a power generation and 
propulsion capability that would have those kinds of 
characteristics, the primary pacing item is to hope for or 
anticipate something that would achieve something on the order 
of about three times improvement in speed, or an expansion or 
improvement of on-orbit time so that you avoid the issue that 
Mr. Mollohan and I were just talking about of how much you 
would have on Station. When you got to Pluto, it is restricted 
to about 6 weeks or so.
    Instead, even if it took you a while to get there, if you 
had an on-orbit time that would be consistent or contiguous, 
the imagery would inform the research agenda much more 
appropriately.

                         NUCLEAR POWER RESEARCH

    Mr. Knollenberg. I am glad to hear you are moving in that 
direction, and I applaud the movement in the research end of it 
regarding nuclear power.
    I have been a past member of the Energy and Water 
Subcommittee and we have dealt with the whole nuclear issue 
very heavily. Do you have any concern about the safety 
situation? And I am suggesting not so much from within, but 
externally, there are those that would have no particular love 
for nuclear power; it is scary, it is bad. In terms of 
fashioning a spacecraft with a nuclear element, are you getting 
any kind of flack? Are you getting any kind of pressure, any 
kind of opposition from wherever on this?
    Mr. O'Keefe. The life of public service is you get loads of 
that in lots of doses, so I don't consider it to be any more or 
less than any other that we have achieved. And, again, it is 
based on the operational history that we have seen, a very, 
very successful one, without incident, of 40-plus years that 
the United States Navy has conducted in not only designing 
smaller, more compact, more powerful power-generation 
capacities, but safe systems that have had no incident. And so 
as a consequence, that is a great benchmark to look at and 
expertise we want to tap.
    Mr. Knollenberg. You don't think there are any show 
stoppers out there?
    Mr. O'Keefe. Anytime you look at technology leap-ahead, 
there is bound to be.
    Mr. Knollenberg. Show stoppers in terms of the opposition 
to utilizing----
    Mr. O'Keefe. We hope not. We don't see any right now, and--
--
    Mr. Knollenberg. You have been using it so it is not like 
it is new.
    Mr. O'Keefe. Yes, sir.
    Mr. Knollenberg. I know that the safety issue comes up, 
obviously.
    Mr. O'Keefe. It is paramount.

                      ENVIRONMENTAL IMPACT STUDIES

    Mr. Knollenberg. Has NASA done anything with respect to 
environmental impact studies on this issue?
    Mr. O'Keefe. Not to my knowledge, but let me take that for 
the record. We have had a lot of operational experience with 
RTGs in the last 20-odd years, and my guess is on the Cassini 
project and a few others in which that was employed, there have 
to have been some assessments----
    [The information follows:]

                    Environmental Impact Statements

    Yes. Pursuant to Chapter 14 of the Code of Federal 
Regulations, all Space Science missions undergo an 
environmental assessment. In addition, certain missions require 
an environmental impact statement, and nuclear power falls into 
this category (specifically, ``development and operation of 
nuclear systems, including reactors and thermal devices used 
for propulsion and power generation.'')

    Mr. Knollenberg. Cassini in particular, that is over.
    Mr. O'Keefe. That is underway.
    Mr. Knollenberg. It is underway, but what I mean is, it is 
a successful program to the point of where it is today, and so 
there will be some information and evidence there that will 
help you draw down some conclusions.
    Mr. Chairman, how is the time?
    Mr. Walsh. You have about 3 minutes.

                          NEAR-EARTH ASTEROIDS

    Mr. Knollenberg. Let me go to one that--I just saw this a 
little bit ago. Apparently there was an asteroid that came 
pretty close to the Earth about, what, a month ago? The 19th of 
March. They couldn't see it coming because it was coming from 
the Sun, and it was 4 days out beyond us before they realized 
it had come. That kind of tells you that you don't know what is 
going to hit you, because it hit you before you knew about it.
    This Near Earth Project which has been around for some 
time--NEAR was one of the acronyms, I know, that was used in 
past times--we have had a system, a program, to document what 
asteroids are out there. This one came out of nowhere, I guess. 
How expansive, how successful have we been in cataloguing and 
categorizing where these things are and where they are coming 
from?
    Mr. O'Keefe. I am going to take this great opportunity to 
talk to the resident expert astronomer who has been there, done 
that, and gotten lots of T-shirts, if you wouldn't mind 
Congressman----
    Mr. Knollenberg. Absolutely.
    Mr. Grunsfeld. Thank you very much. John Grunsfeld. NASA 
has been involved in a lot of different programs to identify 
this. There is a specific budget item for identifying near-
Earth asteroids, Earth crossing asteroids. But also in the 
astronomical community, asteroids are actually kind of the bane 
of our existence.
    There is a large program in astronomy called the Sloan 
Digital Sky Survey, and this is an automated telescope designed 
to search the heavens to catalogue what is out there. And the 
idea was to basically try and look at the whole universe that 
is accessible from the telescopes. Unfortunately, all these 
asteroids keep showing up as small streaks on the image, 
because they take a long exposure, and the asteroids actually 
move during that exposure. So in the process of trying to do 
discovery-level science, a lot of the discoveries have been 
Near Earth Asteroids. So there is a huge catalogue developing 
of those asteroids. And of course the concern is what do you 
think with that information, and how do we disseminate that, 
because it is a very large catalogue? So I think that is all a 
work in progress.
    Mr. Knollenberg. Are you working with other countries?
    Mr. Grunsfeld. This is not work I am doing. I am, as you 
are, a very interested observer and it is an international 
program.
    Mr. Knollenberg. But you are in a better position to 
observe than I am.
    Mr. Grunsfeld. Sometimes very close, yes.
    Mr. Knollenberg. I don't know how much time I have. But 
there was talk in previous hearings of a system to repel, and 
of course there have been movies about all of that, but the 
movies are drawn from some of the science that has been 
developed, so it is not exactly unfounded. There is something 
factual about it. And I am not expecting you to tell me what 
the safety--what kind of window we have for the next 50 years, 
100 years or 1,000 years before one of these things hits, but 
it can be decided to be a global threat of some kind. And I 
just read something kind of interesting about that is why we 
are here, because of some original asteroids that changed the 
climate and changed--killed the dinosaurs and the rest of them, 
and actually paved the way for human beings and small mammals 
to inhabit the Earth.
    I don't know if this is something that would be our next 
movie or not, but all of this, I know, is of interest to NASA 
and you are continuing to cultivate some thought and some 
interest in it. So if there is anything that you can update us 
on for the record--you don't have to do it now--please do so, 
and I appreciate your response.
    [The information follows:]

                    Near Earth Object (NEO) Program

    NASA's Near Earth Object (NEO) Program makes ground-based 
observations with the goal of identifying 90% of the NEOs which 
are one kilometer in diameter or larger and characterizing 
(e.g. determining mass and composition) a sample of them. This 
is a ten-year program, which began in 1998 and should be 
complete in 2008 (although it should be noted that NASA had 
begun searching for NEOs many years before this program 
officially started).
    The threshold size for an asteroid striking the Earth to 
produce a global catastrophe is 1 km in diameter. NASA has a 
active program to detect all such objects that could 
potentially strike the Earth and to identify their orbits. The 
best current estimates are that the total population of NEOs 
with diameters larger than 1 km is about 1,000. The 1-km-
diameter limit for a NEO was set after extensive discussions 
within the science community to determine the size of object 
that would likely threaten civilization. This community 
consensus is codified in the Spaceguard Report and in the 
Shoemaker Report. For comparison, the object that likely caused 
the extinction of the dinosaurs was in the 5-10-km range; the 
current survey of NEOs in this larger range is already 
considered complete.
    Since 1998, NASA has detected 587 NEOs greater than 1 km in 
diameter. Our current discovery rate is approximately 65 new 
objects each year. We believe that we are on track to achieve 
our metric of 90% by the end of 2008, since we have already 
accounted for more than half of the expected population. In 
addition, we expect the rate of discovery to continue improving 
due to advancements in detector technology and search 
techniques.
    The NEO program also enhances our ability to detect and 
track near-Earth objects much smaller than 1 km in diameter. 
For example, on March 12, 2002, asteroid 2002 EM7 passed by 
Earth at a distance of 1.2 lunar distances (464,000 km). This 
50-meter object came out of the Sun, so we were unable to 
observe it on its closest approach to Earth on March 8, but it 
was detected four days later.
    NASA is committed to the NEO program, which is funded at 
$4.5 million for FY 2002.

    Mr. O'Keefe. Thank you. It is an objective, I think, that 
tells us an awful lot of about how limited we are right now to 
be able to deal with some of these questions. And I think the 
Hubble Telescope that John Grunsfeld and his colleagues worked 
on so artfully and so successfully, and the others that we are 
deploying like this, are going to give us a window into 
understanding much better. But at this stage of the game we are 
at the beginning, we are really at the beginning of 
understanding what our not only origins--and we have rewritten 
that here in the course of the last 6 months, of what Hubble 
came back with before John Grunsfeld fine-tuned it. So imagine 
what is going to come back next. But we have been literally 
finding out some things from the very beginning in this 
exploration effort, and the kinds of questions you are posing I 
think are really important, because we don't know the answers 
yet.
    Mr. Grunsfeld. I think your question is very insightful, 
and it is related to what the Administrator has been talking 
about, because we can go back to the chairman's remarks and 
look to our children, really, for the answers to many of these 
questions. What are children interested in? Dinosaurs and 
space. And there is a very close connection, as you say. We do 
believe the dinosaurs were pushed to extinction by a large 
event on Planet Earth, and that is something we don't want to 
repeat. That is an experiment we don't want to repeat, and the 
key to any kind of defense strategy that we might have to save 
the planet someday for our children or their grandchildren or 
great grandchildren is to have some very powerful means of 
deflecting or pushing an asteroid. And I think the nuclear 
propulsion system, someday, is really the only way to do that. 
The physics tells you it has to be something where you can 
identify the asteroid, go to it, and gently nudge it out of the 
way.
    Mr. Knollenberg. Thank you both very much. Thank you.

                 LAUNCH VEHICLES/SPACEPORT TECHNOLOGIES

    Mr. Walsh. Mrs. Meek.
    Mrs. Meek. Thank you, Mr. Chairman, and welcome 
Administrator.
    Mr. O'Keefe. Thank you.
    Mrs. Meek. During the time I have served on this committee, 
I have been interested in NASA and pretty much watched what you 
were doing. I am concerned about your budget and the continuity 
of what has already been invested in NASA. It looks like based 
on your current plans, you lack the crew capacity to conduct 
some sufficient research to satisfy the world scientific 
community and certainly your international partners. And thanks 
to our chairman, we have been able to visit some of these 
international partners that NASA has.
    I understand that there is a cost for the habitation module 
and the crew return vehicle, but you seem to be putting more 
emphasis on launch vehicle technologies than your spaceport 
technologies, and I must intervene to say that I am from 
Florida and I am very much interested in your having good kinds 
of spaceport technologies that you need. Are you going to put 
any more emphasis on this in terms of your plans, as the new 
Administrator, to pretty much continue the continuity of what 
it took years for you to develop?
    Mr. O'Keefe. Absolutely, to the contrary, I think we are 
emphasizing here in order to establish the capability for, as 
Mr. Mollohan and I have discussed, the International Space 
Station, is to ultimately expand that capability to what the 
science drives us to require for the number of crew there, and 
under the current configuration--we agreed 2 years ago, agree 
to now, pressing on in order to make possible, is the same 
configuration. The issue that I think I tried to emphasize is 
that we have to achieve that fundamental first core 
configuration before we can ever consider expanding it.
    As far as shuttle program infrastructure, we are continuing 
a pace, the kinds of efforts that are necessary to maintain 
that shuttle capacity to support International Space Station, 
support the research science and objectives, this year alone 
$76 million increasing to $82 million next year, continuing 
along.
    So our objectives are to continue to emphasize that 
capacity, and not necessarily at the expense of what may be 
required for future space launch initiatives kind of 
requirements.

                      EXTENDED DURATION CAPABILITY

    Mrs. Meek. We have been reading the CRS reports on NASA, 
and the CRS report shows that your program does not involve 
development of a launch vehicle but is focused primarily on the 
risk reduction of technologies that would be needed to permit 
any design decision to be made at some time in the future, and 
your schedule says the year 2006. Given the questions that CRS 
raised about the need for financial payback for the next 
generation, what are your plans to enhance and improve or 
upgrade the existing Space Shuttle in order to continue to 
support the ISS, potentially until the end of the 2020 
deadline, what time frame?
    Mr. O'Keefe. Thank you for the question, Congresswoman. 
That is an issue that, again, in my short tenure of now almost 
4 months, that really struck me as one of the earliest issues 
we needed to wrestle with, is that there is an expectation that 
Shuttle will fly through 2012 and support the International 
Space Station, as well as the Hubble servicing missions that 
John Grunsfeld and his colleagues do, the range of different 
research and scientific objectives we have in mind for the next 
10 years.
    Nonetheless, we have got an asset that is certainly by 
design and design characteristics older, a factor of 20 years; 
nonetheless the mileage on it, if you will, is not all that 
high. We have not really strained the launch rate on that 
asset, and as a consequence we are looking now--as a matter of 
fact, the Associated Administrator, Fred Gregory, who is here 
today, has launched a specific inquiry to begin to look at what 
we would do beyond 2012 in terms of upgrade requirements, 
continued modifications, service life extension alternatives, a 
number of different things in order to get the maximum use as 
well as safety objectives out of the four orbiters we own today 
and maintain them as safely as we know how to for potentially a 
longer duration of time.
    So we are looking at all the options. And I am struck by 
the same inquiry that you have mentioned here as well.

                     SPACE SHUTTLE UPGRADES BUDGET

    Mrs. Meek. Can you give us your explanation as to why the 
space shuttle upgrade's budget has been reduced some 43 percent 
for the 2002 to 2006 time period and you have a reduction of 
$125 million in the 2003 request alone.
    Mr. O'Keefe. Well, the current budget request is $148 
million. Through 2004, it is another $164 million. So we are 
accelerating it along the way. I have to give you a number for 
the record relative to what that may have been projected to be, 
but it is based on what we believed to be the safety upgrades 
required in order to assure the highest standard of safety of 
flight we know how to do.
    But, again, I think Fred Gregory's review of this 
particular set of objectives is what is going to inform us in 
terms of what revisions may be necessary down the road 
depending on what option we select, if it is 2012 or any other 
date in which we seek to retire the assets of what you need to 
do in order to maintain safety of flight considerations at the 
highest standards we know how to do.
    [The information follows:]

                     Space Shuttle Safety Upgrades

    The $125 million reduction is only for safety purposes. The 
Space Shuttle Program (SSP) canceled, deferred, and reduced 
safety and supportability upgrades due to a variety of reasons 
(technology immaturity, schedule slippages, and cost growth 
were major factors). At the same time, the Space Shuttle 
operational program was experiencing increases in contractor 
rates and fringe benefits such as health insurance and higher 
energy costs. With the current budget constraints, the funds 
must be balanced across the entire Agency. Therefore, NASA 
redirected these funds previously planned for upgrade 
investments to mitigate some of the Space Shuttle operational 
growth.

                    MINORITY RESEARCH AND EDUCATION

    Mrs. Meek. One last question before my time is up. NASA has 
a partnership program within the minority research and 
education account. One of the major projects in this program is 
a program that NASA put together with NAFEO, the National 
Association for Equal Opportunity and Higher Education, and you 
established this academy for scientific research and 
educational advancement at NASA Ames. Can you provide me with 
some information regarding this partnership? You are cutting 
this partnership pretty significantly. You cut it from $16.5 
million in fiscal year 2002 to your proposed $13.4 million in 
fiscal year 2003. That was a very difficult thing to get this 
really going. So I would like you to give me some information 
as to why such a drastic cut is being proposed.
    Mr. O'Keefe. Let me take a look in it. I am not familiar 
with the details of it. But I appreciate you bringing it to my 
attention. I guarantee I will take a look into it. I don't have 
enough working familiarity to give you a good answer.
    Mrs. Meek. Would you provide this committee with that 
information?
    Mr. O'Keefe. Yes, ma'am, of course.
    [The information follows:]

                        NASA Partnership Program

    Regarding funding to the NASA Partnership Program, the 
$16.5 million in FY 2002 and the $13.4 million in FY 2003 
reflects the entire program. The NASA Research Park Program at 
the Ames Research Center program with the National Association 
for Equal Opportunity in Higher Education (NAFEO) is funded at 
$1.54 million for FY 2002 through FY 2007.
    Some of the existing Partnership awards are expiring after 
FY 2002 (e.g. Partnership Awards for the Integration of 
Research into Undergraduate Education (PAIR)) and the number of 
new awards are adjusted based on the Agency and the Office of 
Equal Programs (OEOP) priorities and the OEOP budget, $84.7 
million in FY 2002 and $82.1 million in FY 2003.

                            ASTRONAUT CORPS

    Mr. Walsh. Mr. Frelinghuysen.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Mr. Administrator, good morning. You have enhanced your 
standing considerably this morning by bringing an astronaut 
with you, not that you aren't a person of substance in your own 
right.
    Mr. O'Keefe. I could use all the help I can get any time I 
can find it.
    Mr. Frelinghuysen. We are very pleased to have one of your 
finest here, a remarkable corps of men and women with a lot of 
daring and courage. I have had a number in my congressional 
district, for which I am most grateful. They indeed are good 
role models and have excited a lot of young people.
    So I ask this question not as a top priority, but on the 
heels of our discussion the other day with the National Science 
Foundation. There have been media reports that you are having 
some problems developing a space suit where women can fully 
participate in the space program. What is going on in that 
regard? Has there been a suspension of the development of that 
type of equipment in space suits? It is not great press.
    Mr. O'Keefe. No, I agree.
    Mr. Frelinghuysen. What is happening? Could you enlighten 
the committee?
    Mr. O'Keefe. My understanding is that the astronaut office 
has looked specifically at what the requirements are based on 
sizes and so forth as well as shoulder width and so forth. And 
the specific program, as I gather it, for the EMU is what it is 
called, was something on the order of about a $10 million 
development effort that would have the effect that if we didn't 
do so was denying the opportunity for three folks who would 
otherwise be qualified in every other way except for the 
physical characteristics.
    Now, there is a debate underway, as to how wide that 
implication could be; in some aspect it could affect as many as 
30 candidates. But the most definitive analysis and assessment 
that I have seen from a former astronaut within Fred Gregory's 
space flight office is for an assessment that really looks at 
about impact of about three folks that could be dealt with 
there. So the idea of designing a suit that would meet the 
specific characteristics is one of the things that we made the 
trade-off.
    Mr. Frelinghuysen. Correct me if I am wrong, NASA has spent 
between 5 and $7 million developing a small suit.
    Mr. O'Keefe. I believe that is correct, but let me give a 
better number for the record.
    [The information follows:]

                            Small (EMU) Suit

    The cost of developing the small suit through Design 
Verification Testing has been $6.8 million to date. The current 
estimate for further certification testing and fielding of a 
small EMU is an additional $8.6 million, assuming no 
certification shortcomings are uncovered, and no further 
modifications are required.

    Mr. Frelinghuysen. It is an issue that needs to be dealt 
with. I think we would like to think on this committee that 
anybody who is fully trained and qualified, there shouldn't be 
any impediments at all.
    Mr. O'Keefe. Indeed, but to be really, I think, honest with 
ourselves, the reality is, in any asset like this or any 
situation where you are putting folks through operational 
capabilities, there are discriminators. If you are too tall, 
you can't serve aboard a submarine. That is just the 
fundamentals of it. It is the same situation on capsules as 
well as other conditions. So, as a result, we have to make 
those trade-offs and think about what is involved in there.
    I agree with you as an opening proposition----
    Mr. Frelinghuysen. There are other issues I want to 
discuss, but there shouldn't be any trade-offs that relate to 
gender. If, indeed, you have a vision like your predecessor had 
a vision of full participation----
    Mr. O'Keefe. Absolutely.
    Mr. Frelinghuysen [continuing]. It needs to be dealt with.
    Mr. O'Keefe. Yes, sir.

                             COST OVERRUNS

    Mr. Frelinghuysen. We haven't talked about this much. Maybe 
we have danced around a little bit. From your own statement 
last year, NASA projected an overrun in the amount it needed to 
complete the space station program. These are all your words. 
We are up to $4.8 billion. Some of that growth may be 
attributable--again your own words--to such factors as 
inadequate initial requirements definition, added content, late 
delivery and development problems leading to cost variance. 
There are clearly areas of fiscal management and program 
control that need improvement. End of quotations.
    What specific steps have been taken? I mean, you were 
brought in, at least the public reports are, because of your 
good work at OMB. I assume you are in there to control some of 
the fiscal bleeding and get some of these issues addressed.
    I know you have outlined--there is a fair amount of 
verbiage in your statement here, but what success have you had 
to date? Are there particular timetables for addressing these 
issues so they just don't continue into further years?
    Mr. O'Keefe. Yes, sir. Thank you. Two things. I guess on 
the International Space Station there is one set of issues that 
are worth talking about for a minute. In the larger NASA 
agency-wide integrated financial management program that is 
underway----
    Mr. Frelinghuysen. I am talking particularly about the ISS, 
International Space Station.
    Mr. O'Keefe. On the first matter, as it pertains to the 
International Space Station, there are two things we are 
underway with now. First is to establish a NASA internal cost 
estimate by going through a complete review--that is underway 
today, has been now for the last three and a half months--to 
establish a cost estimate that we can look at that meets the 
core complete configuration and then assembly excursions 
thereafter to look at variations of what is required and all 
the international partner requirements that go along with that 
so we have a full understanding of what is involved.
    We are going to validate that with an independent cost 
estimate that should be complete by late summer. The internal 
cost estimate should be done by June. There should be a follow-
on to that for the independent cost estimate by the August 
timeframe. So from that we will then assess what configuration 
requirements, based on the science objectives we talked about 
earlier, based on the orbiter rates we talked about earlier, 
based on the ultimate assembly configurations we may want to 
proceed with as part of the 2004 request to you.

                           NUCLEAR PROPULSION

    Mr. Frelinghuysen. Just getting back to a question 
Congressman Knollenberg asked, if nuclear propulsion, in your 
own words, is a mature technology--I know we are spending more 
money on that technology--why hadn't it been or had it been 
considered at an earlier date? Had the agency been working on 
those types of propulsion issues long before this?
    Mr. O'Keefe. Yes, sir. There had been some activity 
underway, but it wasn't as aggressive as the administration 
thought was necessary in order to achieve the goals we talked 
about. So this is a stepped-up objective now.
    Again, I think I used the right term. This is not the only 
technology, but it is among, if not the most, mature of the 
technologies that we could take to the next level for potential 
application here. I think you got it exactly right.

                       INTERNATIONAL PARTNERSHIPS

    Mr. Frelinghuysen. Could you talk just for a minute about 
the international partnerships? As you say in your own words, 
an important challenge is maintaining international 
partnerships, particularly regarding the role of Russia. Where 
do we stand in our relations with Russia relative to their 
participation and their ability to provide dollars to bring to 
the table?
    From what I gather over the years we have heard they have 
an incredible expertise and knowledge, but I just wondered 
where in particular do we stand with our Russian partners.
    Mr. O'Keefe. I would like to think very favorably. Deputy 
Secretary of State Rich Armitage and myself met with the head 
of the Russian Space Agency for Russia just a few weeks ago. He 
and I are traveling to Moscow at their invitation next week. He 
will be conducting bilateral discussions with them in advance 
of the President's summit plan for this early summer, and we 
will also be concurrently talking about a range of issues as 
they pertain to our partnering arrangement as part of the 
International Space Station configuration and other objectives.
    So I think it is a very healthy relationship and one that 
certainly is being worked right now as hard as I know how to in 
collaboration and direct concert with our colleagues at the 
State Department in order to assure that our foreign policy 
objectives as well as our program objectives are exactly in 
line. Their cooperative effort in this regard is great.
    Mr. Frelinghuysen. We put money into their program, and I 
am not sure what the dollar amount is. Somebody said, I think, 
$800 million. Don't we put money into their program?
    Mr. O'Keefe. There is no direct cash transfer, but let me 
give you a better answer once I look at it a little closer.
    Mr. Frelinghuysen. I thought to some extent we help to 
underwrite certain areas where they had a very high level of 
expertise and knowledge. For the record, if we have been giving 
money to their program, I am not against it. We give them money 
for a variety of different programs.
    Mr. O'Keefe. Would you like me to refer to Fred Gregory?
    Mr. Walsh. The gentleman's time has expired. If you could 
give him an actual detailed answer for the record.
    Mr. O'Keefe. Thanks for your patience, and we will get back 
to you for sure.
    [The information follows:]

                Russian Government/Russian Organizations

    NASA has entered into contracts with the Russian Government 
or Russian organizations for specific goods or services. Prior 
to entering any contract with Russia, NASA has coordinated 
within the U.S. Government, specifically with the Department of 
State and the Office of Science and Technology Policy. NASA 
does not directly put any money in the Russian Space program. 
Although there have been a variety of small research contracts 
with Russian entities funded by NASA's science offices, the 
majority of NASA spending in Russia has been through contracts 
for a variety of goods and services related to the Human Space 
Flight Program. The primary mechanism in this regard is a 
contract signed in 1994 with the Russian Space Agency (renamed 
the Russian Aviation and Space Agency in 1999) to pay for 
support for the International Space Station Program. This 
contract was originally valued at $400 million. There have been 
modifications to this contract to add and delete work as 
necessary. The current total value of this contract is now $547 
million.
    The bulk of the work called for in this contract was funded 
between FY 1994-1998 and has been completed; payments have 
declined to an estimated $6 million in 2002. The remaining 
milestones under this contract primarily involve continuing 
engineering support for Russian-origin docking systems used by 
the United States. The current value of the remaining 
milestones under this contract is approximately $12 million. 
The other major expenditure on Human Space Flight cooperation 
with Russia was the Boeing Company contract to build the 
Functional Cargo Block (FGB) Zarya. This first element of the 
International Space Station was built by the Khrunichev State 
Space Science Production Center under contract to NASA's prime 
contractor, Boeing. The value of this contract with Khrunichev 
was $215 million. The U.S.-owned FGB was launched in 1998.

              RESEARCH MAXIMIZATION AND PRIORITIES (REMAP)

    Mr. Walsh. Mr. Cramer.
    Mr. Cramer. Thank you, Mr. Chairman.
    Welcome back before the committee, this time as 
Administrator of NASA. I appreciate all the fine work that the 
NASA family does. I want to perhaps go over some of the issues 
that have been brought up from your tours to the various space 
centers.
    You know that employees are anxious to understand your 
vision and your goal for the agency. I think their anxiety has 
more to do with budget issues than anything else. You can't 
have everything in a particular given year. We fought some 
tough battles over the years for the space station, and in the 
last few years the support for the station in the House has 
been considerable. But we have sold the station in a number of 
the battles that we have had based on the research that was 
promised to be carried out. So I want to ask you to reflect 
again on the research maximization and prioritization of the 
ReMaP task force.
    Last year, a billion dollars was cut in space station 
research. And I was listening to your earlier statements about 
the ReMaP task force. Will that task force prioritize existing 
planned research for the space station or will it reprioritize 
based on a budget cut that has already existed? I want to know 
how that works.
    Mr. O'Keefe. Very much the former. Their objective is to 
prioritize based on what they think is, from all the 
disciplines represented, I mean every one of them, is in there. 
I am quite admiring of Mary Cleave, the Associate Administrator 
for Biological Research, for the talent that she has brought on 
this panel to think about the priorities.
    Mr. Cramer. This is an 18-person panel.
    Mr. O'Keefe. I believe that is the right number from every 
single scientific discipline we could muster.
    The Chair is Ray Silver, who is a Columbia faculty member, 
chemist I think by background. The Vice Chair is a nuclear 
physicist and a Glen Seborg protege. It is an amazing 
collection of folks.
    But their objective is to lay out the prioritization of 
what the scientific and research agenda would be to utilize the 
capacity in a way that again couldn't be achieved in any other 
place than the unique conditions that the space station 
provides and to maximize, to look at the specific research 
objectives that could be yielded from things or particular 
research objectives that could give us particular break-through 
opportunities.
    So anything that could be conducted here on earth or would 
be interesting to learn the information about but not 
particularly informative, based on their judgment, we have 
asked them to put that as a lower priority objective and 
instead focus on the very unique characteristics that the 
station provides for us that they could utilize that they think 
will maximize the yield that could return from that. They are 
not resource constrained in that inquiry.
    Mr. Cramer. Not budget or resource constrained at all.
    Mr. O'Keefe. Not at all. I tell them, please do not limit 
your thinking based on what you think you know about how much 
money is available, how many people it will take to carry it 
out. Just tell us in the purest form what is the highest yield, 
most important research objectives in this unique atmosphere 
that could only be attained on that asset.

                       MATERIALS SCIENCE RESEARCH

    Mr. Cramer. Research materials science research, last year 
NASA terminated funding for MSRR 2 and the MSRR 3. Now in this 
budget you propose a significant decrease in funding for MSRR 
1. Can you assure me that NASA remains committed to material 
science research in space and 2. how does this budget 
reduction, which is severe, to say the least, reflect that 
commitment?
    Mr. O'Keefe. I am not familiar with the budget you are 
talking about. Let me get smarter about that. I don't want to 
wing it with you, but, at the same time, any objective and 
certainly support for the materials research side of this is, I 
think, very high. We have to be focused on that in order to 
achieve some of the objectives we talked about in previous 
inquiries on propulsion power generation capabilities, et 
cetera, that would be necessary.
    Mr. Cramer. I think that is an important side of the 
science that we should be doing. If you would get me a more 
complete answer to that.
    [The information follows:]

                       Materials Science Research

    At the same time that MSRR-2 and MSRR-3 funding plans were 
discontinued in FY 2001, a reduced budget plan was established 
for MSRR-1 in order to allow its implementation within the 
budget allocation. Since then, an additional amount of $5.5 
million was transferred to the MSRR Materials Science budget in 
FY 2002 to insure the continuation of the facility development. 
The future level of funding for MSRR-1 will depend on the 
recommendations of the OBPR Research Maximization and 
Prioritization task force. Materials Science is a pivotal 
discipline in NASA's mission, and OBPR's materials research 
program has advanced new initiatives for research in novel 
materials for radiation protection and for the development of 
advanced materials for propulsion and spacecrafts.

                      SHUTTLE COMPETITIVE SOURCING

    Mr. Cramer. I want to switch now to what I refer to as 
shuttle privatization. It is now shuttle competitive sourcing. 
The budget as I reviewed it doesn't give many details about 
your plans for privatizing the remaining government role in 
this program. We have got a Rand team that is reviewing options 
for that privatization. When is there expected to be a report 
on that and a position by headquarters on that?
    Mr. O'Keefe. September. The business case, I am told, 
should be complete by that time. So we can make an assessment 
of where we go from there. So until then it is purely 
speculative.
    The competitive sourcing as a terminology change is more 
than just a little nuance. It is a reflection of one of the top 
five management priorities the President has established for 
management objectives to look at competitive sourcing. 
Regardless of what the alternative turns out to be, if we have 
achieved greater performance at lowest cost and improved 
efficiency, whatever, through the act of competition that is 
what we are for. So the business case will inform us once it is 
complete by this September as to how we could go with that 
particular objective.

                        SPACE LAUNCH INITIATIVE

    Mr. Cramer. If you would, Mr. Administrator, in the time 
that I have left, discuss the role that you envision for SLI in 
your space transportation strategy.
    Mr. O'Keefe. Yes, sir. Space launch initiative is clearly 
designed, as far as NASA's requirements are concerned, that may 
be necessary for the next generation assets to replace current 
transportation capabilities and other means. I would like to do 
this, given the time we have available, to really think through 
what those alternatives are, in as close a cooperation as we 
can achieve it with the national security objectives that are 
there.
    The Air Force is on a very similar path for reusable launch 
vehicle requirements. So what we are trying to do is assess 
what the NASA requirements are, what the Air Force requirements 
are and converge that leveraging of technology for both 
objectives as well as we know how to.
    So part of our task, at least the current plan this fall is 
to be looking at being selective about a variety of different 
design characteristics we may want to pursue. But if in the 
process of defining those Air Force requirements we need to 
stretch that a little bit--I am talking about a matter of 
months or so--that is what we intend to do. So we can at least 
try to make a good-faith effort at leveraging the requirements 
and the technology capabilities that could yield to both sets 
of requirements and objectives.
    Mr. Cramer. So in your integrated space transportation 
program you have three elements--the shuttle upgrades, SLI, and 
the advanced space transportation program as well.
    Mr. O'Keefe. Yes, sir.
    Mr. Cramer. Thank you, Mr. Chairman.
    Mr. Walsh. Mr. DeLay.

                     Congressman Delay's Statement

    Mr. DeLay. Thank you, Mr. Chairman; and I ask the 
indulgence of the committee for just a moment. Mr. Chairman, I 
have a brief statement I would like to make to bring up some 
issues that are troubling me; and then I have some specific 
questions for the Administrator.
    Mr. O'Keefe, I am pleased to see you here, but I am deeply 
concerned about the direction that I see you are taking the 
agency. As you know, and we have talked, I have a deep respect 
for NASA. The Johnson Space Center is close to my district, and 
most of the people that work there are my constituents. So I 
have been involved in the goings on of the human space flight 
program since I have been in Congress over the last 18 years.
    I was cautiously optimistic when the President tapped you 
as the new NASA Administrator. I was thrilled to see somebody 
of your reputation and your stature coming to head this agency. 
NASA was facing and it continues to face some really tough 
management and some pretty tough financial issues. But I was 
concerned because I wasn't sure of your plan.
    You know, I had all kinds of questions: What did you know? 
Did you know anything about NASA? Are you coming in with a 
single goal of putting the books in order or is there a passion 
there about the big picture of what space is all about? Do you 
care about the expiration? Do you understand how important it 
is to continue putting people in space?
    To be frank, my concerns haven't been alleviated. If 
anything, you are only confirming my reservations.
    From the big picture perspective, you seem to have a timid 
and anemic plan for human space flight. Your budget projections 
for the outyears project a rapidly declining and limited 
program. Rather than pushing the envelope in space exploration, 
you seem to be pulling back; and, additionally, your proposal 
for this year includes a cut of 93 FTEs from human space flight 
and reducing funding by $550 million.
    More specifically, I am absolutely astounded to have 
learned of your plan for the X-38 and the NSBRI. On the X-38, 
last year during conference consideration of the VA, HUD bill I 
offered report language directing NASA to provide $40 million 
for the X-38. This amendment was accepted unanimously because 
the members of the committee wanted to see a fully functioning 
space station.
    Contrary to what the budget mistakenly says, this is not an 
earmark. This was a policy decision by this committee to 
support a lifeboat on the station to ensure a full-time crew of 
six to seven people. Three of them would spend most of their 
time operating and maintaining the station, and the others 
would do the scientific research that makes the station the 
premier laboratory it is proposed to be.

                              X-38 PROGRAM

    Six weeks ago, I heard rumors that this program was being 
canceled. My staff requested a status report from NASA 
headquarters, and only last week I received a one-page document 
that lays out a plan for an orderly shutdown of the X-38.
    Beyond the lack of timeliness, this really troubles me on a 
number of different levels. First of all, you talk a good deal 
about the need to have science drive the agency. In your 
statement on Friday at Syracuse, you said that NASA's mission 
must be directed by science, not by destination. Well, I am not 
sure I totally agree with that statement. You know, Apollo 
would have never gotten us to the Moon without a bold 
commitment by JFK to get us there within the decade; and that 
was a destination-driven project.
    But I do think you are missing the target when you don't 
ensure that we have six to seven people full time on the space 
station. The decision to kill X-38 strikes at the very heart of 
the need to let science drive the agency, and with this plan 
you deliberately constrict the science that can be done aboard 
the space station.
    Secondly, I am amazed that you would reject the committee's 
directions. I don't want to sound like Senator Byrd and lecture 
you on the Constitution, but Congress does control the power of 
the purse. Even if this were an earmark, I am really shocked 
that you would use the $40 million in the bill to shut down a 
program that the committee so clearly supports.
    Another issue is the NSBRI. The NSBRI is a consortium, as 
we all know, of premier research institutions that have formed 
a partnership with NASA to conduct the research that only NASA 
can do, analyzing the effects of microgravity on the human 
body. They are learning a lot about treating diseases here on 
earth. Yet in spite of your commitment to science, you propose 
to cut funding from $17 million back down to $10 million. 
Frankly, it just doesn't make sense to me.
    So, Mr. Administrator, we have the same goals--at least I 
think we have the same goals--but, frankly, I am really 
disturbed by your blatant disregard of Congress's involvement 
in the spending process and your lack of vision and funding for 
human space flight. You face some serious challenges as you 
implement management reforms at this agency, but don't let the 
treasure of our space program fall victim.
    I see two unacceptable trends at NASA: first, a blatant 
disregard for congressional intent in the appropriations 
process and, second, a limited vision and insufficient funding 
for the human space flight. So would you like to comment? You 
can comment on my remarks or, because I only have about 5 
minutes left, I would like you to comment on the decision to 
ignore Congress's direction on the X-38.
    Mr. O'Keefe. Thank you, Congressman. It is a pleasure to 
see you, too. Thank you. Again, I welcome the opportunity 
anytime and have sought to endeavor to engage in discussion 
anytime you are available on any of these matters. So I welcome 
that anytime you are available, sir; and I have sought to 
pursue that several times as well.
    As it pertains specifically to CRV, I think the discussion 
we had about 2 months ago is looking at alternative efforts 
that were underway to accomplish a multiple set of requirements 
for the crew transportation vehicle and for other missions. 
Again, I would be happy to talk to you about that separately. 
As we discussed it a couple of months ago, that appears to have 
the opportunity to not only achieve the larger set of 
requirement objectives for other purposes but also to meet the 
crew return vehicle mission that could be there. So that is the 
purpose of exploring that particular avenue instead.
    As we discussed, again, I apologize for the lack of 
information that you have received since then; and I will 
redouble my efforts to assure that every opportunity you are 
available we will go through this in detail specifically to 
look at how do we use the technology that has been derived from 
X-38 and the CRV objectives to date to achieve that particular 
task and apply them to these other wider set of mission 
requirements that will also achieve the crew return vehicle set 
of objectives, too. So I think we are doing this in concert 
with the same mission objectives in mind. Again, I apologize if 
we haven't gotten the information to you sufficiently.

                             RUSSIAN SOYUZ

    Mr. DeLay. I don't want to interrupt, but I am running out 
of time.
    I want to ask you, is not the current plan Russian Soyuz 
not a multi-task plan? You don't have a plan in place while you 
are shutting down the X-38?
    Mr. O'Keefe. Yes, sir. The plan had been all along that 
Soyuz, until you found some crew return vehicle opportunity, 
would be the asset of choice. It is today, it was yesterday, it 
will be tomorrow. The objective that we talked about and that 
we seek to pursue is one that meets that mission and other 
mission objectives along the same time line that was originally 
envisioned as part of X-38. So I think we are heading down the 
same path, but we are doing it, instead of a single mission 
purpose, meeting a couple of other objectives at the same time. 
If we can do that, I think we have leveraged this in a way that 
meets a multitude of objectives. But, again, I would be happy 
to reengage with you on that, walk through that discussion 
again, as we did a couple months ago, and update you on it. I 
apologize if we were insufficient in bringing you up to speed.

             NATIONAL SPACE BIOMEDICAL RESEARCH INITIATIVE

    Mr. DeLay. Would you like to comment on NSBRI and cutting 
it back to $10 million?
    Mr. O'Keefe. I have just heard this recently. There was a 
member of the NASA Advisory Council that brought that to my 
attention just in the last week. So I am not familiar enough to 
make an informed judgment on it. Let me get back to you for 
sure. I don't want to wing it on this one.
    [The information follows:]

          National Space Biomedical Research Institute (NSBRI)

    The NSBRI is an integral component of OBPR's strategy to 
develop counter-measures against the deleterious effects of 
spaceflight on humans.
    The NSBRI is an essential element of NASA's Biomedical 
Research program. The team-based approach utilized by the 
Institute complements individual biomedical research 
investigations in a focused program that will lead to active 
interventions to protect space flight crews from the 
deleterious effects of the space environment. The NSBRI is a 
private entity allowing NASA to out-source a coordinated and 
integrated team research effort to improve the quality and 
reduce the time to development of deliverables without adding 
civil servants to the government payroll. The NSBRI was 
competitively selected five years ago for an initial five-and-
a-half year based period with three five-year options, funded 
at $10 million per year. The NSBRI has developed a successful 
management and scientific process, providing important research 
in space biomedical areas.
    The NSBRI, at the recommendation of a site visit conducted 
in the Fall of 2002, will soon be continuing into its second 
five year period of operation. The recent site visit report was 
critical of the NSBRI in many important areas, but the NSBRI is 
taking action to improve in those areas. NSBRI has developed a 
strategic research plan for the Institute that defines the 
scope of the Institute for the next five years. NASA has had 
this proposal externally peer reviewed which validated the 
NSBRI Strategic Research Plan. NASA will make a decision on the 
appropriate funding level for the NSBRI based on the 
Institute's strategic plan and on the outcome of NASA's 
reprioritization efforts for the International Space Station 
(ISS).

                            SHUTTLE UPGRADES

    Mr. DeLay. Just to finish, Mr. Chairman, I have heard 
different dates about when you anticipate the shuttle would be 
replaced; and I understand that JSC has been directed to 
develop a strategy to identify upgrades required to maintain 
the shuttle fleet through the year 2020. If the ongoing NASA 
studies recommend that the shuttle fleet remain viable until 
2020, will NASA revise their current safety and supportability 
upgrades as well as the infrastructure's requirements to 
account for the longer flight expectancy?
    Mr. O'Keefe. Yes, sir. That is precisely the objectives we 
are after, to examine all those alternatives. If that is timid, 
I apologize for that. But I think it is responsible, is that we 
realistically look at what would be required beyond 2012 if 
need be; and the associate administrator for space flight has 
begun that inquiry to look at that range so we can make 
judgments about that. That is not timid. That is 
responsibility. That is what we have to do in order to do this 
in a way that assures the safety of flight between now and 
then. That implies a lot of other things in terms of how long 
the asset will be flying.
    Mr. DeLay. Do you have a transition plan?
    Mr. O'Keefe. Just beginning the inquiry. Apologize, we are 
talking about weeks old. It is really sitting back and saying, 
do we really think that it is likely that 2012 is going to be 
the drop-off point for all four orbiters? The answer we have 
come back with is it may not be. If it isn't, we ought to be 
thinking about what those alternatives are. So that inquiry has 
really just begun. I am happy, anytime you are available, to go 
through that in any amount of detail you would like to.
    Mr. DeLay. Thank you, Mr. Chairman.
    Mr. O'Keefe. Thank you, Congressman. It is a pleasure to 
see you, too.
    Mr. Walsh. Ms. Kaptur.

                        SCIENCE AND ENGINEERING

    Ms. Kaptur. Thank you, Mr. Chairman.
    Welcome, Mr. O'Keefe. It is really a pleasure to have you 
before our subcommittee for the first time.
    I want to thank you for your service to our country and all 
of those who are here from NASA today and for the cumulative 
impact that you have on helping to inspire and helping us to 
think beyond where we are today and to keep a visionary 
perspective there for both adults and children of this Nation. 
I think there are very few organizations that can manage to do 
what you do, and the American people truly have something to be 
proud of in their continuing support of NASA in all of your 
dimensions.
    Mr. O'Keefe. Thank you very much.

                           NEW ENERGY SOURCES

    Ms. Kaptur. I wanted to ask in this first round a couple 
questions. I have always been so impressed with the application 
from NASA of new technologies that wouldn't have existed 
without NASA's excellent science and engineering work. It has 
been applied in medicine and biotechnology and even the design 
of the chairs we sit in, some food products and so forth.
    You may not be able to answer this today, but maybe in the 
record or maybe through private briefings you could help me get 
a better handle on a problem that I am struggling with. That 
is, this Member of Congress is way beyond the petroleum age. 
She shut the door on that in the 20th century. She is into 
thinking about how better to use the tax dollars of this 
country to create new energy sources for the future that are 
non-petroleum based.
    Your agency has done so much work in propulsion and 
aeronautics and new fuels. Your knowledge of solar power, 
though it has been used for other purposes, is just so 
important. I am very interested in what you can contribute in a 
coherent manner to our growing need to be more focused on how 
we use our research dollars at the Federal level and the other 
resources that we have to create new fuels and new power 
sources for America.
    To what extent can your research be either summarized or 
better directed to help us meet that new energy future?
    Mr. O'Keefe. Well, thank you for the question. Some of our 
earlier inquiry with the committee members here--Mr. 
Knollenberg mentioned the current circumstances we are 
constricted with at this stage, and we carried on quite a 
discussion about that.
    Ms. Kaptur. I am sorry I missed that.
    Mr. O'Keefe. Not at all. It is more a case of we are 
limited right now by the laws of physics as well as unusual 
cases of applications of solar power, and that is about it once 
we get outside of earth's atmosphere.
    We can achieve the objective at being in low earth orbit in 
8 and a half minutes. Once we get there, we are on a leisure 
cruise, comparatively speaking. We can't seem to get very far, 
either by speed or by on-orbit time because we are restricted 
based on capacity and the chemical fuel requirements that 
you've cited. So, as a result, what we are pursuing are 
alternative sources that right now are constricted within the 
destinations that we are looking at or areas that we are 
looking at that are no more than the distance of Mars, for 
example, that can efficiently utilize solar power.
    So the best most mature available technology that we are 
exploring aggressively starting this year is for nuclear 
propulsion and power generation capacities. There are other 
options that we may yet pursue and can consider as we go down 
the road on looking at alternative non-fossil-fuel-based 
capabilities, but all of them I think we are going to be 
pursuing aggressively. Because, again, the stark reality is, 
once we achieve low earth orbit, we are traveling at speeds 
that roughly equate to the same ones John Glenn did when 
Friendship 7 went up 40 years ago. We are not achieving 
distance in space because of the limitations we have for solar 
power right now and the distances that that constricts us to.
    Ms. Kaptur. I am very interested in this whole 
transportation arena. Though this isn't necessarily the 
jurisdiction of this committee, no agency of our government 
should be without a rising consciousness about helping America 
meet its chief strategic vulnerability which is imported fuels. 
We have men and women in the field today protecting those 
supply lines; and, as time goes on, our vulnerability becomes 
greater.
    As I read your mission, you talk about to improve life 
here. I am very interested in improving life here at the same 
time as we extend life and find life beyond, and I would very 
much like you or your associates to think about a way of 
summarizing your ongoing research that relates to applications 
here on earth that might help us in shaping a new energy 
future.
    I know that is a difficult arena because you are focused in 
the heavens and how to get there, and that is okay. But I know 
somewhere buried within all these research sites there is 
intelligence and there is a vision that can help me think this 
through more clearly.
    In looking at your research budget and other budgets around 
this government, I am very interested in a heavier focus on 
making us energy independent again as a country. So to the 
extent you can help me think about that more clearly, I would 
be very grateful.
    You say in your testimony on page 3, ``the changing nature 
of transportation and our Nation's security.'' I could not 
agree more, and I think NASA may be able to play a larger role 
in this regard than she has perhaps thought of in the past. So 
to the extent you can help me understand what you may be doing, 
what you may have done, what we could do in the future, I would 
be most appreciative.

                       NUCLEAR PROPULSION SYSTEMS

    On the nuclear issue, you only have got one paragraph in 
here on that. That seems to me to be a pretty significant 
proposal. I would like to learn more about what you are 
thinking there. Perhaps others have asked this question. I 
don't know. But why nuclear?
    Mr. O'Keefe. Again, it is the most mature of the 
technologies we could exploit that is non-fossil. There are a 
range of other options that we are going to continue to look 
at, but this is the technology that clearly has the best 
possibility, we think, at near-term opportunity to really 
increase speed as well as on-orbit time that could be provided.
    The current operational experience we have had at NASA is 
over the course of the last 20 years or so roughly different 
RTG, you know, reactors capabilities for power-packed capacity 
that is nuclear driven. So it has been a limited kind of 
design, research and development capability in that regard.
    The Department of Energy, the Navy department through the 
naval reactors program has had a remarkable record over the 
last 40 years of decreasing the size and increasing the 
capacity without incident, completely, safely of operational 
time. That amounts to something on the order of 5 million 
reactor years without incident at all.
    So it is a very mature technology, and our capability now 
is to either figure out how to upscale what we have done at 
NASA in the last 20 years to meet the kind of probe 
requirements we need for power generation and propulsion 
systems, or to decrease the size of the reactor compartments 
that nuclear vessels use to get the same kind of capacity. One 
of those two is going to converge in the middle and produce a 
system that we think will be faster as well as increase on-
orbit time.
    Ms. Kaptur. I think my time may be up, but I want to place 
in the record an article that was in the New York Times on 
Saturday called The Hole in the Reactor. It concerns a nuclear 
power plant in our region which is on the commercial side, not 
the government side. It is not run by the Navy, unfortunately. 
But this Member of Congress has been on record for a long time 
as having grave doubts about the capability of the commercial 
sector to responsibly handle the management of nuclear power in 
this country.
    Mr. Walsh. We will include that for the record.
    Ms. Kaptur. I appreciate that.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Ms. Kaptur. Therefore, I would like much more detail on the 
$1 billion in this arena being spent by NASA. At the moment, 
you don't have any support on that. I would like to learn more.
    We just had a report this morning that, because of this 
damage at our plant, it now appears that some workers have 
actually received radiation that the company did not inform 
anyone about; and they have actually gone outside that plant to 
other plants around the country. I mean, this is unbelievable 
that this has happened. So I am very--I know the commercial 
production of nuclear power is different than perhaps what the 
government does. On the other hand, you have a lot of 
commercial contracts; and the idea of sending this into the 
heavens is something that I have to think about.
    Mr. Walsh. The gentlelady's time has expired.
    I ask the Administrator to respond for the record on that, 
if you would, sir.
    Mr. O'Keefe. I would be delighted to do that.
    We look forward to meeting with you about the initiatives.
    [The information follows:]

                       Nuclear Systems Initiative

    Members of the Office of Space Science senior staff visited 
the Congresswoman's staff on May 14, 2002, and provided an 
overview of the program. The same senior staff members returned 
on May 15, 2002, and provided an overview to Congresswoman 
Kaptur personally. A copy of the charts used in that 
presentation is attached.

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                          NEAR-EARTH ASTEROIDS

    Mr. Walsh. Mr. Goode.
    Mr. Goode. Thank you, Mr. Chairman; and thank you, Mr. 
Administrator.
    My chief area of focus is going to be aeronautics and 
sites, but before going to that I was intrigued by the question 
asked by Mr. Knollenberg about the asteroid. What was the width 
of the asteroid at the largest point?
    Mr. O'Keefe. Gosh, I don't know. It is a pop quiz.
    Mr. Goode. Can you find out?
    Mr. O'Keefe. We have a resident astronomer sitting here. He 
doesn't know either. He says 10 to 50 meters.
    Mr. Goode. If that had struck, what kind of damage would 10 
to 50 meters do if it was in a land area?
    Mr. O'Keefe. This is Dr. Ed Weiler. He is our Associate 
Administrator for Space Science.
    Dr. Weiler. Something the size of 10 to 50 meters coming in 
at high velocity would have the effect of a nuclear device. It 
would be a city buster.
    Mr. Goode. In the article or the question by Mr. 
Knollenberg, as I understood it, you didn't learn of the 
asteroid until it passed Earth, is that correct?
    Dr. Weiler. That is correct. Let me add to the discussion 
earlier, though. We do have a formal program within NASA's 
Office of Space Science. That is about $4 million a year. We 
have committed to Congress to map all the asteroids above, 
near-earth-crossing asteroids, the ones that really could hurt 
us, to map 90 percent of those above the size of about 1 
kilometer within the next 10 years. We started that about 3 or 
4 years ago, and we are on schedule. So we are pursuing that.
    Just recently, in fact, because of the news article, I 
asked my near earth object person, were there any ideas out 
there to not just look at the really big ones, which we would 
call dinosaur-type events but these city-busters events, was 
there any research out there that was really good research but 
was just below the budget horizon in terms of priority that we 
could start up to get a better idea of what the population of 
these small ones is? Indeed, he did say there were a couple 
ideas out there to go get a small sample and get statistics on 
the abundance of these 10 to 100 meter class asteroids. I took 
a little bit of my reserve and started that up just a few weeks 
ago.

                   COMMERCIAL AIRCRAFT TRANSPORTATION

    Mr. Goode. Thank you very much.
    Mr. Administrator, to jump to aeronautics now, the truth is 
that two traditional avenues of support for research and 
development in the area of aeronautics in this country, as in a 
number of others, is industry and government. And the resources 
from both have been falling in the United States but have been 
increasing in the European Union. So my question to you is, do 
you believe that we must reverse these trends to avoid falling 
further behind in our share of global commercial aviation sales 
in order to maintain our technological edge?
    Mr. O'Keefe. Well, in my judgment, the technology that is 
necessary to look at those leap-ahead capabilities we need for 
commercial aircraft transportation, et cetera, while it may be 
a direct function of sales, is something we nonetheless are 
dedicated to doing independent of what that sales and 
commercial volume may be. Because I think of the opportunity to 
increase not only capacity and speed as well as efficiency but 
also to make safer systems out there.
    I mean, in my judgment, it is just unbelievable that we 
have got a situation now where, having seen evidence on 
September 11th of a capacity to use commercial aircraft, as a 
terrorist weapon, there are means and technologies to avoid 
that problem. That is what we are dedicated to doing. That is 
an independent question of sales volume. While we may work this 
in concert with our friends in the aerospace industry per se, 
we are really dedicated to that task as to what the market 
opportunities may be. That is their business to look at. We are 
trying to help facilitate the maximum opportunities for them to 
take advantage of.

                       NATIONAL AVIATION STRATEGY

    Mr. Goode. On January 9, 2002, the President issued a 
Presidential review directive establishing an interagency 
working group under the National Science and Technology Council 
to review and to develop national aviation and intermodal 
transportation system level policy to ensure safe, secure and 
efficient mobility for all Americans. The directive made a very 
strong and compelling case for the need for such a policy, but 
it was almost immediately withdrawn. Can you tell us why this 
important effort was canceled and what you think should be done 
to satisfy this important national need?
    Mr. O'Keefe. I don't know what led to the development and 
then subsequent withdrawal of the policy. Let me look into it 
and get back to you. Thank you, sir.
    [The information follows:]

  National Aviation and Intermodal Transportation System Level Policy

    To allow for additional interagency consultation that may 
preclude the necessity for a formalized Interagency Working 
Group, the Presidential Review Directive, PRD/NSTC-1, was 
revoked.

    Mr. Goode. Do you not agree that NASA, DOD, DOT, FAA should 
be coordinating together to develop a national aviation 
strategy that would realize the vision that we need for 
America's future in the area of aviation?
    Mr. O'Keefe. Sure. There is no question that the Department 
of Transportation within the FAA and other interested parties 
ought to be coordinating, and we are. We are working as hard as 
we can to make that happen. But we can always do a lot better 
at that, again for the kind of objectives we just talked about 
of how to design aircraft and systems that could prevent the 
kind of tragedies we saw last September. Those are the kinds of 
objective we are after, and we are dedicated to doing.

                      AERONAUTIC BLUEPRINT VISION

    Mr. Goode. NASA has an aeronautic blueprint.
    Mr. O'Keefe. Yes, sir.
    Mr. Goode. Is the proposed funding for aeronautics in the 
NASA budget this year sufficient to fulfill the vision in that 
blueprint?
    Mr. O'Keefe. I think so, sir. We are endeavoring to make 
that work; and to the extent that additional resources are 
targeted in other areas may be required once we begin to follow 
that particular plan, certainly subsequent budgets will look at 
whatever revisions may be necessary.

              SMALL AIRCRAFT TRANSPORTATION SYSTEM (SATS)

    Mr. Goode. In the SATs area, SATs has gotten from the 
proposed executive budget a little increase. Do you not see 
that SATs offers real potential to add a dimension to air 
travel that could be extremely helpful to alleviating hub 
congestion and also making air travel safer, especially for 
smaller numbers of passengers in smaller aircraft?
    Mr. O'Keefe. It could and the request is for $20 million in 
2003 to accomplish at least going down the expiration of that 
objective. To the extent that yields an opportunity, we are 
going to pursue that. I think you have summarized it precisely 
right, Congressman. Thank you.
    Mr. Goode. You are fully supportive of going in that 
direction.
    Mr. O'Keefe. Yes, sir.
    Mr. Goode. Thank you, Mr. Chairman.
    Mr. Walsh. Thank you, sir.
    Mr. Fattah.

                          TECHNOLOGY TRANSFER

    Mr. Fattah. Thank you, Mr. Chairman.
    Let me ask the Administrator if he could, for the record, 
comment on the program that China has embarked on and their 
schedule to, as they suggested, join us in manned space flights 
and what the implications of any of that may mean for the 
agency and for your mission.
    But I want to state for the record that I do disagree with 
the proposed cuts in your budget related to education. I had a 
question somewhat as a follow-up to an earlier remark, but, 
more broadly, there are a lot of innovations and research that 
the agency has done over the years that have found commercial 
viability, as you were discussing, in terms of airline safety 
and in a much more broader sense. I wonder whether or not there 
is any thought about how the agency could recapture dollars to 
any degree, in terms of extracting from the private sector some 
reinvestment in your work in terms of the transfer of this 
technology and also research that has, as you know, been 
commercialized. Has there been any thought to that?
    I know this is a discussion that went on in higher 
education for a while now. I just wonder whether or not you had 
any thoughts on it.
    Mr. O'Keefe. Thank you. I will take you up on the 
invitation to give you a statement on the policy as it pertains 
to that, your opening part of your question on China's 
objectives for its space program and how we seek to advance 
continuing dialogues on a bilateral basis therein as it 
pertains to technology transfer, which I think is really the 
root of what you are inquiring.
    [The information follows:]

                      NASA Cooperation With China

    NASA's cooperation with China currently consists of very 
limited, low-level, project-specific Earth Science cooperation, 
involving geodynamics/plate tectonics research and joint 
participation in a limited number of multilateral coordination 
groups, such as the Committee on Earth Observation Satellites. 
There is no joint satellite, launch vehicle or human space 
flight related cooperation under discussion or contemplated at 
this time. NASA is, however, cooperating through the U.S. 
Department of Energy (DOE) with Chinese Government sponsored 
researchers as a part of the Alpha-Magnetic Spectrometer (AMS) 
program. AMS is a Department of Energy-sponsored high-energy 
particle physics experiment designed to study the origin of the 
universe from the International Space Station (ISS). The AMS 
Principal Investigator is MIT Professor Samuel C. Ting, a 1974 
physics Nobel laureate. NASA, under a 1995 agreement with DOE, 
has responsibility for the integration of the DOE AMS 
experiment on the Shuttle and International Space Station 
(ISS).
    The USG has consistently made clear to China that any 
potential new cooperation between NASA and China is predicated 
on China adopting more stringent export controls and resolving 
U.S. concerns about China's exports of proliferation concern. 
Once these issues have been successfully addressed, NASA would 
be interested in renewing a dialog with China in areas of 
potential cooperation. This USG position was reiterated to the 
Chinese Government by US Embassy Beijing in bilateral 
discussions between US Embassy Beijing and the Chinese National 
Space Agency conducted in November 2001.
    Regarding China's space flight activities, NASA is not in 
direct contact with the Chinese Government. China has publicly 
expressed its interest in placing a human into space in the 
2003 or 2004 time frame. Indications are that China appears 
committed to developing a long-term capability to launch humans 
into space in a manner similar to the United States and Russia.
    Under NASA's ISS program, non-Partners, such as China, 
could participate in the ISS program through an ISS Partner. 
However, all other Partners must be notified and give their 
consensus prior to the non-Partner's participation in the 
program. Non-Partner participation could occur through 
contribution of hardware to the ISS or through collaborative 
research. The ISS international partners are currently not 
discussing any plans to pursue Chinese participation in this 
program.

    Mr. Fattah. Also, a whole range of areas--there have been 
advances that have emanated through the work of the agency in 
pharmaceuticals and in research, all kinds of streams that have 
been commercialized to the advantage of the private sector. I 
just wonder whether or not you have reaped any financial 
benefit or thought about how it is that might happen.
    Mr. O'Keefe. As I gather it, the history of the agency, we 
have looked at several different models of how to do tech 
transfer and what the yield would be back to the United States 
Government as a consequence of that investment.
    I guess the bottom line is we really haven't settled on 
what the appropriate mechanism ought to be for trying to 
advance technology insertion for commercial applications. If 
anything, the nature of what we do is much more in the basic 
research and then developmental activity, that tracing back 
some technology that uniquely has, you know, some commercial 
product result is a limited kind of area.
    Because technology can be employed in so many different end 
products or uses. So that is what really complicates the 
development of a policy like this, but it is one we are trying 
to sort through to make it work.
    Mr. Fattah. It can't be more complicated than space flight 
itself.
    But my point is that, for many decades now, part of the 
justification for such a significant investment in the space 
program has been that it has had domestic benefits in terms of 
health, in terms of all kinds of products that have entered the 
market and so on.
    My question to you is that, whether or not there may be 
some utility in the agency looking at, as I have indicated, 
there are many higher education institutions that have been 
involved in this process for the last decade or so trying to 
figure out whether or not there is some ability to create 
reciprocal relationships based on their research with companies 
that take to market ideas that haven't really been the by-
product of their own investment.
    I was wondering whether that model might have some 
implications for the agency going forward, given the fact that 
you will continue to have needs and they will probably be 
continuing to be strained, as the budget of this country goes 
forward, whether or not there may be some liability in looking 
at whether or not there could be a more clear correlation 
between some of your activities and some return on those 
investments from those who then take the end product and use it 
for their own profit-making gains.
    Mr. O'Keefe. No, it is certainly worth exploring, to take 
concerted effort to try to develop how such a policy would 
work. One of the earlier discussions we had here at the 
beginning of the hearing was on commercial uses by the 
pharmaceutical industry, for example, in trying to look at 
different research objectives on the International Space 
Station; and there may be opportunities there. Because what it 
provides is a unique capacity, unique capability that that 
system will deliver that, frankly, we wouldn't have anywhere 
else on this planet, even if we tried to simulate it.
    So there are some great gains, great advances that I think 
we are going to yield as humans from that activity, but there 
is also the pharmaceutical company advantage as well. So it is 
a good example of the kind of thing you are I think working 
through in your thought process that we ought to do the same 
with.
    Mr. Fattah. I want to thank you. If you could, through the 
Chairman, continue to apprise us of any thoughts you might have 
on that matter.
    Mr. O'Keefe. Certainly.
    Mr. Walsh. Thank you.
    We have been at this 2 hours. This might be a good time to 
take a brief recess, stretch your legs. We will be back in 
about 5 minutes. Then it is Mr. Aderholt and Mr. Price. Then we 
will do another round.
    Mr. O'Keefe. One quick comment. I would like to thank John 
Grunsfeld and Susan Kilrain, who is a Navy commander, also an 
astronaut, for joining us today. Thank you again for your 
hospitality in letting them join us here this morning.
    Mr. Walsh. Great to have them.
    We will be back in about 5 minutes.
    [Recess.]

                        SPACE LAUNCH INITIATIVES

    Mr. Walsh. The subcommittee will come to order. As 
promised, our next member of the subcommittee for questions is 
Mr. Aderholt.
    Mr. Aderholt. Thank you, Mr. Chairman.
    Thank you, Mr. Administrator, for being here today. Of 
course, as you know, I represent the district that borders 
Marshall Space Flight Center there in Huntsville; and certainly 
Alabama as a whole is very proud of what has taken place, the 
history of launch propulsion that has gone back for many, many 
years.
    We want to commend you for your determination to take 
control of the National Space Station and get it completed in a 
fiscally responsible way with regard to the Space Launch 
Initiative; it is important to many of us from a research and a 
safety standpoint. And, of course, NASA plays a very unique 
role in providing direction in that.
    Many of us are also concerned about any cuts in the 
program, and I just would like to ask an open-ended question. 
Could you give us a brief update as to your thoughts on that? 
You may have addressed this earlier, before I was able to be on 
the committee, but are you able to address us on your thoughts 
on SLI?
    Mr. O'Keefe. First of all, it was a pleasure to see you and 
a delightful trip down to Huntsville; I had a wonderful trip, 
and I really enjoyed the opportunity to, for the first time, go 
through Marshall Space Flight Center. Having now made the 
circuit of all 10, it was a remarkable place and I will enjoy 
the opportunity to go back.
    As it pertains to the Space Launch Initiative, one of the 
primary objectives we are after, the level of funding we are 
dedicating to this, or at least the resources that are proposed 
for your consideration to be set aside for this objective, 
approaches $5 billion; and it is intended to cover the range of 
not only space launch replacement capabilities for extant kinds 
of shuttle orbiter capabilities downstream.
    Also the other area we are seeking to leverage here is the 
Air Force. For example, the reconnaissance community and others 
are also looking at reusable launch vehicle requirements and we 
are looking to try to converge the technologies we can employ 
to multiple missions or multiple opportunities, rather than 
going down two separate paths; which basically says, let us 
duplicate effort and spend the same amounts to do what 
essentially amounts to using the same technology for different 
roles and mission objectives.
    We are trying to pace the development of what we do with 
SLI to not only meet our requirements, but also to find as many 
creative ways as we can in this unique period to leverage those 
technologies to meet other requirements, as well, which is 
primarily Air Force-driven and reconnaissance system kinds of 
requirements that are out there as well.
    Mr. Aderholt. I may have some that I will submit for the 
record, but that is all I have right now, Mr. Chairman. Thank 
you.
    Mr. Walsh. Thank you.
    Mr. Price.

              SMALL AIRCRAFT TRANSPORTATION SYSTEM (SATS)

    Mr. Price. Thank you, Mr. Chairman.
    Mr. Administrator, let me add my welcome and ask you 
questions this morning, if I might, focused on the Small 
Aircraft Transportation System. I know Mr. Goode has a strong 
interest in this. I understand he has already raised the matter 
with you, and he hosted a meeting in Danville which Members or 
their representatives attended. Mr. Knollenberg has had a 
strong interest, and I certainly have a strong interest in this 
program.
    I would like to ask you a bit about the progress you are 
making, the funding you anticipate and how this program is 
going to be administered over the long haul. I certainly think 
the SATS program is very promising in the development of 
sustainable small community air service that it purports to 
undertake, and we certainly have a strong interest in it in 
North Carolina.
    The North Carolina and Upper Great Plains SATS lab team has 
made considerable progress toward flight validation experiments 
to be conducted during the 2003 Wright Brothers Centennial 
celebration and also has made progress, I understand, in 
preparing for the subsequent 2005 operational demonstrations. I 
am enthusiastic about the participation of several North 
Carolina communities in the SATS program and the role the North 
Carolina Division of Aviation has committed to undertaking in 
developing the air service desperately needed by small 
communities throughout the State.
    The State of North Carolina has more broadly demonstrated 
its commitment to the demonstration and implementation of the 
capabilities envisioned by the SATS program by committing 
$240,000 to fund a comprehensive analysis of the potential 
market for the SATS capabilities in the State. The State has 
identified the five airports that it intends to equip and 
support in a subsidized demonstration of a small aircraft, 
small airport transportation service as early as 2005.
    As I understand it, the SATS program was envisioned as a 5-
year project and the fiscal 2003 request would represent the 
third year of funding. Is NASA committed to continuing to fund 
the program over the next few years at levels that will be 
sufficient to complete the program objectives? Do you have any 
estimates as to what those funding levels are likely to be?
    Mr. O'Keefe. Yes, sir. The current year budget before you 
for your consideration is $20 million for fiscal year 2003 and 
another $20 million for fiscal year 2004 thereafter, assuming 
we continue down that path next year as well. That is our 
projection of what the requirements are at this juncture.
    Mr. Price. I see. Approximately at that 20 million level 
through 2005?
    Mr. O'Keefe. Yes, sir.

            SMALL AIRCRAFT TRANSPORTATION SYSTEM CONSORTIUM

    Mr. Price. Now, I understand that NASA has selected the 
National Consortium for Aviation Mobility, an entity affiliated 
with the Virginia and Florida SATS lab teams to manage a SATS 
consortium that will organize and conduct successful 
demonstrations of SATS capabilities in 2005. There has been 
some discussion over how this is going to work, and some 
concerns have been expressed to me that the National Consortium 
for Aviation Mobility will need to achieve a balance not only 
focusing on developing the technology, demonstrating its 
feasibility, but also focusing on implementing the capabilities 
that will be demonstrated through the SATS program--in other 
words, the need to focus sufficiently on bringing the benefits 
of the SATS program to the people in the small communities who 
so greatly need these transportation services.
    There has also been some question of inclusion in this 
consortium that maybe you can help me address. It is not clear 
that it is going to include, for example, the North Carolina 
and Upper Great Plains team. We hope that there won't be an 
exclusion of any sort from future participation in the SATS 
program. I think it would be unfortunate, since the North 
Carolina and Great Plains team has been the only team, I 
believe, that is focused not only on the development of the 
SATS technology, but also on its implementation, how it would 
actually work in these communities.
    So my question to you is, what continued oversight will 
NASA be providing for the consortium management team that you 
have chosen? Will the North Carolina and Upper Great Plains 
team be allowed to continue to participate in the program? To 
what extent do you think the SATS program has focused 
sufficiently on implementation, in addition to technology and 
development?
    You see where I am coming from on this. I appreciate any 
way you could address these concerns.
    Mr. O'Keefe. Mr. Chairman, if you will permit me, I would 
like to defer to my Associate Administrator for Aerospace 
Technology, Sam Venneri, who is here with us, who, has had a 
deep involvement in the question and may be able to respond 
very specifically to your questions, too.
    Mr. Price. All right. Fine.
    Mr. Venneri. Yes, sir. We are very aware of what North 
Carolina has done and their involvement to date, and it has 
been a much-value-added to the program.
    As far as your statement about selection, I can't comment 
on what you just said in a public forum. We have not officially 
selected anyone. I have not briefed Mr. O'Keefe on any 
procurement activity with this. So any comment on who was 
selected is totally premature on the part of anyone from NASA. 
Rumors abound, but we don't comment on rumors.
    But as far as assertion of involvement, we totally agree 
with your point. This is going to be inclusive, not regions-of-
the-country exclusive, and NASA will have oversight over this 
process to ensure that it is a national program and doesn't go 
into a regional effort in one part of the country, or not. So 
our involvement will be the overall leadership working with the 
appropriate organizations, both manufacturers, as well as the 
associations that are promoting the use of small aircraft such 
as GAMA and national business associations. So as far as our 
approach, it is going to be one of the ways we lay principles 
out from day one in terms of a comprehensive approach to 
demonstrate capability, to demonstrate activities at the local 
airport level and to continue to work with the State government 
aviation leaderships and to truly make this a national effort.
    So I guess once we make an official determination, we would 
be more than happy to come up and brief you and your staff as 
to the management process.

           NATIONAL CONSORTIUM FOR AVIATION MOBILITY PROCESS

    Mr. Price. I would appreciate that, and we will gladly talk 
with you about it. Perhaps you can clarify, though, the process 
that NASA is going through in terms of the management of the 
program.
    You say that the National Consortium for Aviation Mobility 
has not been selected. What is the selection process?
    Mr. Venneri. The process is competitive. We have proposals 
which we have evaluated in a competitive manner. So we are 
going through the process of a final competitive selection 
today. So everything that we are doing on this is that nature.
    What we want to make sure we don't do is to make sure that 
lessons learned from the previous program we did with general 
aviation, AGAT, the Advanced General Aviation Technology 
activity which very successfully concluded with advancements 
that you can see in today's general aviation aircraft. That was 
not a heavy hand by the government only; it was a team effort 
of both government and industry participating without 
directives coming from the Federal Government.
    So we are trying to maintain that philosophy of how we 
implement this first phase of SATS, so that it is a team 
effort, but competitively selected as we move forward.
    Mr. Price. Let me make sure I understand your articulation 
here today of the principles that are going to govern this 
effort, no matter who is chosen for this administrative role: 
that there will be inclusion of all of the SATS lab teams in 
participation in the program; and that the program will focus 
on implementation and service to these communities as well as 
on simply developing the technology.
    Mr. Venneri. Yes. We don't want to look at technology 
development. We are not looking at implementation from a 
community standard. That is like getting one part of the 
program done and not really demonstrating feasibility at this 
State level. So that is the approach we are taking.
    We will ensure a fair process is put in place so that 
whatever we select there as the management group, they do not 
become regionalized, but keep this at a national level to 
ensure inclusion of all interested parties.
    Mr. Price. By ``all interested parties,'' you mean the 
original SATS teams?
    Mr. Venneri. I mean the teams we have in place today which 
were useful in getting us to where we are today.
    Mr. Price. I understand. Thank you very much.
    Thank you, Mr. Chairman.

             MANAGEMENT OF THE INTERNATIONAL SPACE STATION

    Mr. Walsh. Thank you.
    We will begin the next round, and I would like to ask Mr. 
O'Keefe questions regarding our committee's Surveys and 
Investigations staff review of the management of the 
International Space Station. One glaring observation of the 
review is the confusing management structure. The staff report 
includes the observation that, quote, ``NASA's original 
structure, including the relationships and relative authorities 
of the headquarters vis-a-vis its 10 centers and the ISS 
program office, has not been conducive to effective program 
management cost control.''
    Do you agree with the general thrust of this conclusion 
that for large programs there is a confusing management 
structure; and if so, what actions are you taking to correct 
that problem?
    Mr. O'Keefe. I think they are absolutely right. It is a 
very similar finding that the so-called Young panel that met on 
the International Space Station and delivered their 
recommendations last November came up with, too. And what we 
have done in the interim period--and I would be happy to meet 
with S&I staff to go through this, as well--is a special 
organizational configuration now in which there is no ambiguity 
for how this works.
    There is a program manager at Johnson Space Center who is 
responsible for the International Space Station. His primary 
responsibility is the systems integration task, the engineering 
duties. He reports directly to the program executive officer 
here in Washington, who works for Fred Gregory, the Associate 
Administrator for Space Flight. It is that straight, and as a 
consequence, there are no multiple layers or anything else. 
There are three folks on the chain and that is it.
    So they were exactly right on the observation, so was Tom 
Young, and we have endeavored to fix that. We are about to 
announce here shortly the selection of the program executive 
officer, who in looking at the list of folks that Fred Gregory 
has considered, all of whom have tremendous acquisition and 
systems integration, program management experience.
    Mr. Walsh. Is it safe to say that given the continuity here 
and the conclusions of these two groups, is this a plan, a 
template, that you could lay on other large-scale NASA 
programs?
    Mr. O'Keefe. Could be. As a matter of fact it is a 
temptation because, again, as we talked at the first round, 
this is a great example of the large-scale systems integration 
project effort that NASA has really excelled at over its 44 
years. Anything that approximates something like this needs 
that kind of clear organizational line of authority that avoids 
a lot of ambiguous decision making as you go along. It is a 
model. We certainly are going to look to transport as much as 
we possibly can, because I think it is going to work here very 
well.

                          LEAD CENTER CONCEPT

    Mr. Walsh. Concurrent with the adoption of the lead center 
concept of operations in 1995, the headquarters staff here in 
Washington was reduced by over 700 personnel. Do you think this 
reduced level of headquarters staff has compromised the ability 
of headquarters to adequately oversee the center directors and 
to challenge them on costs, schedule and technical information 
when necessary?
    Mr. O'Keefe. That is my understanding of the facts, as 
well, in terms of the devolution, if you will, of the program 
management responsibility.
    Having said that, there are nearly a thousand folks at NASA 
headquarters here in D.C., and as a consequence, we are looking 
to strengthen the oversight capacity we have over program 
management, regardless of which center it is conducted at; but 
also to increase and improve the collaboration between and 
among centers and between and among enterprises so we can 
leverage and maximize the capabilities we have across the 
agency. That is the larger objective we ought to be about at 
headquarters, and the individual center activities and programs 
that are managed there ought to have the responsibility and 
accountability to carry that out.

                      RADIATION HEALTH INITIATIVE

    Mr. Walsh. Thank you. On another topic, the radiation 
health initiative included in the budget request is $10 million 
for an initiative to, quote, ``investigate means to protect 
humans from radiation damage.'' For a number of years this 
committee has been telling NASA to look into the issues of 
space radiation and, in fact, we have included appropriations 
to carry out research at the Loma Linda University Medical 
Center and at the Ferre lab in Chicago.
    What will be accomplished under your initiative that has 
not already been accomplished at these two research facilities?
    Mr. O'Keefe. I don't know how this particular initiative is 
going to square with the other two efforts, but we are in 
absolute agreement on the imperative for really trying to get 
an understanding of the human effects side of what radiation 
exposure will do.
    This is as profound a limitation for human space flight as 
the issues we talked about a little bit earlier of propulsion 
systems, power generation and the means to conquer distances 
and speed, in that the radiation exposure to humans is 
something we really don't have a full appreciation and 
understanding of the effects of. It is a function of not only 
depth of exposure, but also duration of exposure; and from what 
we see right now, the conclusion that we picked up just from 
the Mars probe capacity, Odyssey, that has fed back the 
information since that time of its journey, would indicate that 
it is at least an order of magnitude of three times the factor 
of what it is daily on the International Space Station. The 
catch is, humans could not survive that under present 
conditions. So while the exploration objectives, I think, as 
enunciated earlier in inquiries, may be appropriate to be 
defined as individual places you want to go, the reality, the 
stark reality is, humans can't get there because of the 
radiation exposure. So I think you are right on the mark, and 
we need to think about how we would converge the initiatives 
that you have discussed and sponsored as part of what we are 
about, as well.
    Mr. Walsh. Pointing out this initiative is a result of a 
number of congressional directives, earmarks, if you will, that 
NASA initially questioned the value of; and I think it has been 
proven that this was a solid initiative and it makes the point, 
at least for me, that congressional earmarks are not 
necessarily evil things. I know you came from a place where 
this is commonly thought. I hope that maybe your philosophy 
might change a little bit, in the future at least, based on 
some experiential learning.
    Mr. O'Keefe. Mr. Chairman, we have known each other long 
enough. You know I am a slow learner. I am delighted to work 
with you anytime, sir, and I think if we can demonstrate a 
means to responsibly address the concerns the committee raises, 
that that should mitigate against the imperative to establish 
an individual direction to do something that we may otherwise 
have differences about.
    So my objective is to work with you as closely as you will 
tolerate in order to meet the objectives of what you believe 
the committee priorities should be, so we can actually apply 
that in lots of directions. On this one, I am in complete 
agreement with you. It is something we need to know more about 
because it is a limit to what we can fantasize about in terms 
of any destination we want to go. That is not timidity; that is 
responsibility, in my judgment.
    Mr. Walsh. Thank you. Thank you for your comment.
    Mr. O'Keefe. Thank you, sir.
    Mr. Walsh. Mr. Mollohan.

                        CRV AND HABITATION MODEL

    Mr. Mollohan. Thank you, Mr. Chairman.
    Mr. Administrator, in not too many weeks we will be taking 
this bill from the subcommittee, to the full committee, to the 
floor.
    Mr. O'Keefe. Godspeed.
    Mr. Mollohan. When we get to the floor, there will, for 
sure, be an amendment to strike funding from the Station--I 
don't think there is much doubt about that. And we will be 
asked again to justify the program. We will make the arguments 
that have been made in the past, and they will in large part be 
centered around the arguments that have been advanced to us, by 
NASA and everyone in the support of Station, having to do with 
the capabilities of the Station to do scientific research.
    I am afraid with this budget, continuing the recommendation 
for not building the habitation module and CRV, will allow 
opponents to point and say, see, even NASA doesn't agree to 
move forward with elements crucial to maintaining a seven-
member crew and, therefore, a seven-member crew being a 
prerequisite for doing good science, that you can't do good 
science on the Station.
    My line of questioning is to explore your rationale for not 
moving forward with the CRV and the habitation module.
    Now, I am sure I was not articulate in asking my questions 
before, but I am going to ask them in maybe smaller bites to 
understand and try to explore. That is all I am trying to do. I 
would like to have the advantage of your rationale for not 
moving this.
    But let me first ask you, because I misunderstood your 
answer with regard to the habitation module, and it took me 
back a little bit. I understood that in response to my line of 
questioning before, you said you were funding the habitation 
module in this budget. Am I wrong?
    Mr. O'Keefe. No, sir. Excuse me. I apologize. What you see 
in the configuration, the habitation module would be an option 
after you have achieved----
    Mr. Mollohan. You are not funding it in the 2003 budget?
    Mr. O'Keefe. No, sir.
    Mr. Mollohan. And the CRV--and there may be reasons that 
you don't want to explore that totally, but we put $40 million 
in last year for 2002 and 2003. And I suppose you could argue 
that it is funded for 2003, but are you not using that money to 
shut that program down, the X-38 program down?
    Mr. O'Keefe. Yes, sir. In the discussion I had with Mr. 
DeLay, the attempt here is to try to leverage the mission 
requirements we have against the number of options we have as 
opposed to selecting a specific single-purpose asset that would 
be dedicated exclusively to crew return; and there are options 
we can pursue on that front. So we are using the $40 million in 
order to wind down the CRV activity for X-38, but apply that 
technology to other options that meet multiple missions.
    Mr. Mollohan. A little independent of Mr. DeLay's point, 
which was very pointed----
    Mr. O'Keefe. I concur.
    Mr. Mollohan. Do those two decisions, and the uncertainty 
associated with them, push out the ability to do what everyone 
has referred to as ``good science'' on the Station?
    Mr. O'Keefe. No, sir, not at all. I think it is a question 
of the timing----
    Mr. Mollohan. That is just what I said.
    Mr. O'Keefe. Yes.
    Mr. Mollohan. That was exactly my question, and I am sorry 
again if I was inarticulate, but let me ask it again please.
    Do not those two decisions, in and of themselves, push out 
in terms of time the ability to man the Station with seven 
people and to do good science on the Station?
    Mr. O'Keefe. As it stands right now, there is nothing we 
are doing in 2003 and 2004 as our plan to head to core 
complete.
    Mr. Mollohan. I know there is nothing you are doing, but 
there is something you are not doing.
    Mr. O'Keefe. No, sir. The plan right now is precisely the 
same as it was a year ago, a year before----
    Mr. Mollohan. Except that you are not moving forward with 
the habitation module, for example.
    Mr. O'Keefe. Which was not scheduled at this time, to be 
employed right now.
    Mr. Mollohan. It may not be employed right now, but you are 
not working on it right now.
    Mr. O'Keefe. It didn't need to be worked on right now.
    There is a range of things we are looking at. The next big 
item, the next milestone which is defined on this chart is in 
2002, which then facilitates the incorporation of other modules 
and capabilities thereafter.
    So there is nothing we are not doing today that would 
preclude any configuration ultimately after we have achieved 
core complete.

                           SEVEN-MEMBER CREW

    Mr. Mollohan. What year do you anticipate being able to 
habitate the Station with seven astronauts?
    Mr. O'Keefe. By this summer we should be in a position to 
make a determination of whether we can reasonably make the core 
configuration, which would then make open the opportunity for 
any number of astronauts you like beyond three. Until we get to 
that stage where we can reasonably assure that the core 
configuration can be met and, therefore, make open the 
opportunity to discuss anything beyond the current 
configuration three, then seven, six, five, any other number 
you like is unlikely until we can meet that configuration. That 
will be achieved as an accomplishment point, a milestone, by 
early 2004; and we will know by this summer whether we are on 
track to make that work right or not.
    Mr. Mollohan. Thank you----
    Mr. O'Keefe. So I think we are exactly on the same path in 
terms of, this is a timing question, and right now we are doing 
everything we can to facilitate the maximum range of options of 
what the configuration Station may look like after we have 
achieved core configuration.
    Mr. Mollohan. I look forward to understanding more clearly 
how you are thinking about the station and what kind of 
justification arguments could be made.
    Mr. O'Keefe. Thank you for your patience.
    Mr. Mollohan. Thank you for yours, Mr. Administrator. We 
don't want to get ahead of each other.
    Mr. Walsh. I think you are both highly articulate. I didn't 
mean to demur from that--Mr. Knollenberg.

                  SMALL AIRCRAFT TRANSPORTATION SYSTEM

    Mr. Knollenberg. Thank you, Mr. Chairman. They are just 
being very, very nice to each other. Mr. Chairman, how much 
time do I have?
    Mr. Walsh. Five minutes.
    Mr. Knollenberg. Let me get into two quick items.
    One was the SATS, the Small Aircraft Transportation System, 
which I have been working on with Mr. Goode; and I understand 
Mr. Price also brought up the issue. And what strikes me is 
interesting about this--and I am glad you raised the amount of 
money for the budget, what was it, $20 million for 2003?
    Maybe Mr. Goode mentioned I was with him in Danville some 
weeks ago when we had a presentation by a number of individuals 
on this role. You have 5,000 small airports and 30 hubs. People 
aren't getting to where they want to go; sometimes they can get 
there faster in a car. It is the kind of speed thing we talked 
about in the earlier encounter that I had with you with respect 
to Mars and Venus and those places; we have got to speed things 
up to get out there.
    But my understanding is that the Williams International 
folks, the Eclipse Aviation and NASA engineers have drawn some 
pretty serious attention on this. Can you tell me in the sense 
we have evidence of private sector investment in this area, do 
you plan to accelerate the research, to accelerate the movement 
in the direction of seeing this come to some form of fruition.
    Mr. O'Keefe. In the exploration with Mr. Price a little 
earlier, Sam Venneri, I think, laid out a plan for this which, 
Mr. Chairman, if you will permit Sam to elaborate on his 
comments on this----
    Mr. Knollenberg. I think we met before and talked about 
this very same thing. And you can be brief, if you wish.
    Mr. Venneri. Less than 30 seconds. The answer to your 
question is, we have the funding to adequately push this 
technology at a pace that I think is consistent with companies 
like Eclipse. We are working with Dan Rayburn on his plan for 
certification. So our approach to the investments we have today 
is totally consistent with where the market is going and where 
we are on a path, I think, to change a major way of moving 
people by smaller aircraft, not taking away from the hub-and-
spoke, but at least having an option for the smaller 
communities.
    Mr. Knollenberg. And NASA is going to respond to this 
emerging, call it ``demand,'' if you will, because some people 
in some sectors of the country are just unable to get around. 
So I hope that NASA is going to continue to have that same view 
over that, same attitude. Is that what you are thinking?
    Mr. Venneri. That is exactly what we are thinking.

                           HOMELAND SECURITY

    Mr. Knollenberg. Very good. Thank you.
    Let me go to another quick question, homeland security, and 
I know that this is not an issue of NASA necessarily, but then 
it is.
    I couldn't find in the budget any reference at all to any 
kind of program or budget estimate that relates to this 
particular technology, and it has been talked about ever since 
9-11. That is the Refuse to Crash. My understanding is that 
there are flight control intervention methods that can prevent 
a pilot from crashing into, let us say, a nuclear plant or 
whatever it might be, or a Super Bowl crowd. They just won't do 
it.
    My question, I guess, is this: What is the status of any 
research you have in place right now on this issue?
    Mr. O'Keefe. Thank you for the question. It is one that I 
feel very strongly about, as well, that we have the technology 
and means, I think, to develop a capacity to avoid that use of 
a commercial aircraft as a terrorist weapon ever again. We have 
started down the road on that to look at what alternative 
designs would be. The catch is going to come in with two 
things.
    First of all: How commercially adaptable could it be? So 
therefore you have got to make it simple enough and it has got 
to be developed far enough that it has adaptive capacity in 
every commercial aircraft.
    But the second one is, it also is a cultural issue. There 
isn't a pilot around who is fond of the notion that there could 
be something that could take over the controls.
    Mr. Knollenberg. That was my next question.
    Mr. O'Keefe. This is a big challenge, and it is one that I 
think has advances that have been made in aerospace technology 
that certainly provide a range of technology, means to make 
that task more comprehensive and easier for them to do, provide 
greater information arrayed in the right directions, they 
really are skittish over the notion that anything could vector 
off and take over from human interaction capacity. So that is 
going to be the real nut of it.
    We have got to work through that particular question 
because the technology, I think we are right on, is out there 
and it is a question of how you develop it and commercially 
adapt it; but at the same time it is getting past this culture 
question that I think is so critical.
    Mr. Knollenberg. Isn't it true, though, what they want to 
do is not necessarily--take over the control of the plane from 
the ground would be one way, I know; but the point is, what it 
does too, of course, is to make sure that that plane lands at a 
secure airport. So it is not like the pilot is being taken 
anyplace where he won't like it; he is going to have a safe 
landing someplace. And isn't that part of the software, to tie 
it in with a secure airport at some location nearby?
    Mr. O'Keefe. It could be. I don't want to lead you to 
believe that the technology has moved that far ahead, that we 
have perfected that. But, certainly, looking at alternative 
means of how you deal with this and how you can vector an 
airplane so that it avoids inanimate objects in this case is 
not something that is a leap of technological faith. It is out 
there, and it just needs to be developed. But you have really 
got to deal with the human dimension of this that we have all 
become, I think, over time, quite confident in.
    Mr. Knollenberg. If it is software, it wouldn't be all that 
expensive to deploy would it?
    Mr. O'Keefe. I don't know. It is there and the development 
challenge is something we are beginning to pursue. But I think 
it has got promise; there is no doubt about it. That is a big 
human dimension we have got to work with.
    Mr. Knollenberg. Some of us are interested in it, I know, 
and it certainly would take the guesswork out of, where is that 
plane going? Well, it is going to go to a secure airport. It is 
not going to hit a building or a nuclear plant, and it won't 
hit the Rose Bowl or whatever.
    So thank you very much.
    Mr. O'Keefe. Thank you, Congressman. September 11 certainly 
did highlight for us the imperative of doing something, and it 
is not a leap of faith, and I think you are exactly right on 
it.
    Mr. Knollenberg. Thank you.
    Mr. Walsh. Mr. Frelinghuysen.

                        NATIONAL SECURITY ISSUES

    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Mr. Administrator, we know that in your previous life you 
worked for the Department of Defense and concentrated in areas 
of national security and certainly in a variety of forms. You 
have talked about focusing NASA's role on national security 
issues. By statute, NASA is actually a civilian agency, isn't 
it?
    Mr. O'Keefe. Yes, indeed.
    Mr. Frelinghuysen. And we obviously are aware that NASA and 
DOD have cooperated. Could we consider that perhaps NASA's 
mandate and mission is somewhat changing as a result of what 
you bring to the table and the circumstances and times in which 
we live?
    Mr. O'Keefe. I think that I would attribute that less to my 
qualifications or characteristics and more to the times and 
circumstances in which we live for two reasons.
    The first one is certainly the imperative to leverage 
capabilities and technologies independent of which sector they 
are really developed in, be they the military sector or public 
view or any other commercial activity, civil aviation, and 
aerospace focus we may have. So that is one side.
    The other is the nature of technology, as well. Technology 
doesn't discriminate on the end asset that it goes into. So, as 
a consequence, we are kidding ourselves and it becomes terribly 
expensive if we pursue the same kinds of technology 
requirements that would be demanded, necessary, whatever, 
within the national security sector on separate tracks. All 
that means, we are doing the same thing, paying the same amount 
of money for it, duplicating efforts and spending at least 
twice as much to do it and missing an opportunity for some 
really remarkable technological collaborative arrangements.
    So it is the times we live in that suggest that we think 
differently about it not only because of the national security 
imperative, but also because of the nature of technology and 
how it has moved and how it has become indiscriminate in terms 
of how it can be applied.
    Mr. Frelinghuysen. That is what we call a good softball 
question, I think you have adequately answered. It certainly 
has a lot of ramifications.
    Mr. O'Keefe. Thank you, sir.

                          COMPETITIVE SOURCING

    Mr. Frelinghuysen. The pursuit of competitive sourcing has 
been discussed a little bit here. In your statement, you sort 
of list, among others, greater flexibility to recruit and 
retain skilled personnel--and I assume that is agency wide--and 
you make a remark in your comments that when you visit a lot of 
these centers, such a small percentage of the people that are 
working there are young. I mean, that is a pretty shocking 
statement; and you make additional comments somewhere in your 
statement that in the next 5 years a huge portion of those 
people are going to retire.
    This perhaps is another softball. What are we doing about 
it? This is a part of your mission in one sense we are reducing 
the academic line item here. I assume that must bear some 
relation on what you are trying to improve upon in terms of the 
involvement and interest of young people getting out of our 
colleges and universities, graduate schools.
    Mr. O'Keefe. Sure. Now, your understanding of the nature of 
the human capital situation we are encountering is exactly 
right. Federal Government-wide, I think this is true; but it is 
particularly super-attenuated at NASA. We have a third the 
number of folks under 30 as we have over 60. That is just an 
alarmingly high number of folks. But what it says is, we have a 
very mature, extremely experienced work force right now. So 
trying to find the answers to some of these dilemmas in the 
recruiting objectives, and the way we go about training folks 
in career development opportunities and professional 
development has never been better in that sense, because there 
are chances for promotion potential and recruiting chances and 
the right kind of people with the right experience levels who 
are there to help educate.
    I will take you up on your offer to elaborate on this one 
further. On the education mission specialist objective we 
announced last Friday, I think that is going to excite the next 
generation of folks who could aspire to the kind of career 
professional requirements in science and engineering that we 
need in order to continue the exploration quest. And if we, I 
think, successfully pursue the education mission specialist 
objective, that will find ways to excite people who will want 
to go into these kind of career fields and avoid these kinds of 
problems in the future.

                COMPETITIVE SOURCING SHUTTLE OPERATIONS

    Mr. Frelinghuysen. The other aspect you mentioned in terms 
of--I assume this not only pertains to the Shuttle but on the 
competitive sourcing, your desire to avoid, in your own words, 
potential continued cost growth for Shuttle operations by 
moving to a private organization that has greater flexibility 
to make business decisions that increase efficiency.
    Where do we stand relative to that goal?
    Mr. O'Keefe. The business case is underway right now to 
look at what parameters we could look at for competitive 
sourcing Shuttle operations. That is due to be finished in the 
early fall, so we will have a better opportunity to judge 
exactly whether or not we are going to get that level of 
efficiency out of transitioning from the current operations, 
and that may mean a combination of things.
    Mr. Frelinghuysen. In the transitioning, that obviously 
promotes a degree of instability in the existing work force?
    Mr. O'Keefe. It might, but at the same time the experience 
we have had at Kennedy Space Center, for example, in the effort 
that has gone on there on Shuttle operations over the last 
several years has been successful even though an awful lot of 
the folks who are currently associated with company X were 
previously involved in the program as public servants. So the 
transition was accomplished, done well. The safety flight 
opportunities that we have seen there have only been enhanced. 
So there are ways to do it and do it safely, successfully, and 
that is what we are committed to doing. So until we see the 
business case, I don't know how far that range of opportunities 
will send us, but it is worth exploring.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Mr. Walsh. Thank you.
    Mr. Goode.

                         AEROSPACE ENGINEERING

    Mr. Goode. Thank you. We have a number of engineering 
universities and colleges in Virginia, as you well know. I am 
told that there is a decline in interest among students in 
aerospace engineering and that some believe that it, in part, 
is due to perceived decreased interest by NASA on more research 
and development in aeronautics.
    What do you think NASA could do to help that problem, or do 
you agree the problem exists?
    Mr. O'Keefe. It definitely exists; there is no doubt about 
it. As a general proposition across the board--not just 
aerospace, but engineering across the board--math, science and 
engineering degree pursuits are in decline even though the 
number of career opportunities interestingly are greater now 
than they were before. So you can have a much smaller number of 
people, a cohort of folks competing for a much larger number of 
jobs; and the good news is, those that are in it are going to 
have some greater opportunities to choose from.
    So part of our objective, I think, is to commit ourselves 
to really developing, recruiting that next generation of folks 
who will take over the science and engineering and technology 
exploration objectives that we have as an agency, but also, I 
think, on behalf of the community at large in aerospace. That 
is precisely the kind of focus we are going to be taking more 
of in the time ahead.
    Mr. Goode. Mr. Chairman, I appreciate Mr. O'Keefe's 
responsiveness today and I have no further questions.
    Mr. Walsh. Thank you very much.
    Mr. O'Keefe. Thank you, Congressman.

                     ADVANCED ENGINEERING EDUCATION

    Mr. Walsh. I would like to ask Mr. Venneri to come up and 
let you off the hook for a moment.
    Mr. O'Keefe. God love you, Mr. Chairman.
    Mr. Walsh. I believe he is the person that can respond. If 
you can't, let me know.
    There was an issue, or a program, that I was reminded of 
today that NASA established with Syracuse University and 
Cornell University; and I believe the drill was to determine or 
develop a way to teach engineering in a sort of real-time 
format from different locations, to have people working on a 
task at remote locations, but in real time, using computers.
    Is that something you are familiar with?
    Mr. Venneri. Yes, sir.
    Mr. Walsh. It is. Could you give us an idea of how that is 
going and what you have learned? I believe the task itself was 
to design a vehicle, but I think the point was to develop ways 
to teach engineering in a new manner.
    Mr. Venneri. Yes. The last statement you made, when I think 
you were up at Syracuse, we talked about this. The task that we 
have in place with the team across those two universities is 
dealing with advanced engineering education, of how 
geographically distributed teams can work together. Actually we 
focused on reusable launch systems as a task at hand, something 
relevant to NASA. We would be more than happy to come up and 
give the details to you or your staff, but let me give you a 
real brief summary here. We are about a year and a half into 
development of some innovative ideas of learning environments, 
not the way universities do it today of televisions or distance 
learning, which is the term they use. We are actually looking 
at interactive learning where you could bring experts into this 
system. The folks at Syracuse have come up with some innovative 
software that could be coupled to course development as a 
module, so even though we haven't focused on reusable launch, 
the framework of the software is such that anything can be 
plugged into it. So it is a template for other courses to be 
used. It is not like a point design course is what I am trying 
to say. What we are dealing with is not just television, but 
virtual reality, how you could be immersed in the engineering 
process itself; and that is where Cornell is bringing the task 
in.
    We are looking at actually accelerating that and bringing 
it into some of our NASA centers for evaluation as part of our 
training program for our own engineers, as well as for 
engineering support work within the university structure, and 
we have subsequently talked to schools in Virginia and Florida 
about expanding this team across multiple universities, to 
really just go outside of the State boundaries.
    My summary, I am very happy with the folks at the two 
schools that have addressed this. I think they have stepped up 
intellectually to the kind of things we wanted to achieve, and 
we are about 50 percent into the program with some 
accomplishments that are being recognized by other folks in 
this field as very unique to the R&D, what I would call 
advanced learning environments.
    Mr. Walsh. Was the point to--I am sure there were several, 
but primarily was it to teach individuals how to teach with 
this method? Or was it to teach individuals how to learn with 
this method? Or was it to actually do design work in this 
distributed mode?
    Mr. Venneri. Actually, it was none of the above. What we do 
today is teach by instruction. What we were trying to do with 
this, what engineers really are learning is creativity. So what 
this process is, is not just how to teach by rote, but how to 
enhance creative thinking in engineers that really teach the 
subject, but also take you to another level. And that is what I 
mean by advanced learning environment versus an information 
transfer environment, which we have today.
    Mr. Walsh. And what are the applications of this for NASA?
    Mr. Venneri. Actually, it is for our own workforce. Really, 
engineers ought to be in lifelong learning, not just a 4-year 
degree. So what we are looking to apply this to is really an 
advanced learning environment that really enhances lifelong 
learning, not so much you get a degree and then you stop 
learning. So we are looking at applying it into our own 
systems.
    Mr. Walsh. Thank you.
    Mr. Mollohan.

                          FLIGHT RATE SCHEDULE

    Mr. Mollohan. Thank you, Mr. Chairman.
    Mr. Administrator, flight rate, I understand the final 
decision hasn't been made about the flight rate, but that, with 
the exception of one flight in 2004 to service Hubble, all 
other flights during the next several years will be for 
missions to Space Station. After STS-107, when will the first 
flight be dedicated to a Shuttle research mission?
    Mr. O'Keefe. The next available one after that scheduled is 
the Hubble mission you referred to in early 2004. The rest are 
dedicated exactly as you said.
    You have 10 flights that are going to be required, starting 
in May through January, 2004, that will be dedicated 
exclusively to International Space Station. So that is a rate 
of five each year; and while that is not as aggressive as we 
have been flying, nonetheless what also is reflected in the 
budget is a policy decision that we do research objectives on a 
pay-as-you-go basis from the research projects, as opposed to 
assigning it as part of the base flight rate or something else.
    So the International Space Station bears the cost of the 
flight rate. Hubble is an exception because we made that policy 
change after having scheduled that flight. But every flight 
from this point forward, unrelated to those, will actually be 
reflected as part of the cost of the program--if we intend to 
use that aspect of the launch, let us reflect that as part of 
the program itself.
    Mr. Mollohan. This schedule is driven by budgetary 
considerations, I understand?
    Mr. O'Keefe. Partly. Certainly let me reassure you that on 
the International Space Station flight rate that is different, 
driven by the maximum, most achievable, most efficient way to 
deploy that integration of systems over that next 2-year 
period. I have run this into the ground many different times--
is there any other configurational flight rate that the 
engineering team would like to see in order to achieve that 
success? And the answer is no, we have got the maximum, optimum 
rate right now.
    Mr. Mollohan. What flights are you taking out of the 
schedule?
    Mr. O'Keefe. The only issues, as I understand this and 
recall how this was first constructed, were flights that were 
scheduled for research yet identified in terms of what research 
would be aborted. Instead, the approach we are taking is, 
rather than scheduling it based on a flight rate, saying, no, 
let us look at research objectives and, within the science 
project, the objective of the program involved, that you 
actually budget for that program the cost of a flight. So I 
suspect we are going to see a revision here in 2004 and out, 
based on that revised policy that will reflect that cost within 
the cost of the program itself.
    Mr. Mollohan. Please expand on those last two thoughts.
    Mr. O'Keefe. To the extent there is any program out there 
that we will be pursuing that requires a Shuttle launch, the 
cost of that Shuttle launch will be borne by the program. And I 
am of a strong mind that, beginning in 2004, we are going to 
see a revisitation of what those programs might be that then 
need to reflect that cost, directly involved. At the present 
time, the only flights you see reflected are Hubble and the 
International Space Station. Now we have got this policy 
instituted; let's see where it goes in terms of which really--
--
    Mr. Mollohan. I think I understand this has a certain fluid 
nature to it, but are you suggesting that there are no 
scientific flights other than the scheduled Hubble flight in 
2004 in your schedule from now----
    Mr. O'Keefe. Correct, for 2003, that is the only year I 
would really take to the bank, and where we are right now is 
exactly as you described it: research mission in July, Hubble 
flight thereafter; and that is the summation of it at this 
point with all the International Space Station assembly 
missions.

                 PRIVATIZATION VS COMPETITIVE SOURCING

    Mr. Mollohan. Will you talk to us a little about the 
privatization initiative? Maybe you can start with the 
difference between privatization and competitive sourcing.
    Mr. O'Keefe. In my view, privatization is you have already 
made up your mind what the outcome is before you ever start it; 
and I think that is a wrong way to go about doing business. 
Competitive sourcing as part of the President's five-point 
management agenda very clearly identifies this as a means to, 
first, start with what is the performance requirement you want, 
what is the result you seek, what is the outcome you are trying 
to attain, and then think about different ways to go achieve 
it. And it may include privatization or it may include a public 
entity that performs part of the task, or non-governmental 
organizations or something else, but it at least forces you to 
go through the thoughtful analysis of really defining what you 
want the outcome and the performance characteristics to be, and 
then back into how you actually carry it out; as opposed to 
saying, I have already decided the answer is going to be ``X,'' 
and I think that is the shift we are trying to reflect in our 
thinking at NASA as well as why we are now emphasizing this as 
a competitive sourcing alternative.
    Once that business case comes forward this fall for Shuttle 
operations, we will get a better sense of what is the best 
alternative we could pursue and competitively source what those 
options might be down the road.
    Mr. Mollohan. There are a lot of implications to that. Let 
us talk about one, the control implications of that.
    Mr. O'Keefe. First and foremost, our objective is safety of 
flight consideration. Anything that compromises that objective 
we have got to discard.
    At the same time, I think there are opportunities with the 
same logic and mindset that say, identify the outcome of the 
performance characteristics if you set the safety and risk 
management standards higher, and say, that is the outcome I 
want to achieve; you may find a different way to accomplish 
that task that may in fact be even more efficient than the way 
we are doing it today.
    So I really want to reserve judgment, but I think that the 
outcome of this exercise is going to be that it really is 
driven by exactly the kinds of outcome-based objectives we are 
talking about; and the first issue we have always got to be 
cognizant of is, what are the safety considerations going to 
be? We have a high performance rate that has been, I think, 
without compromise on the safety standards. We sure don't want 
to start now.
    Mr. Mollohan. We already have a private sector entity, but 
how would this be different from what we have today?
    Mr. O'Keefe. Again, I am not trying to be evasive.
    It really depends on what the business case looks like. 
There may be cases where they come back and say, look, you 
fundamentally can't take this quality assurance function and 
make it anything other than a government performance. That may 
be the answer. But until you see the full array of what things 
may be, I don't want to prejudge the outcome and say, okay, 
private company X is going to do it. But you have it exactly 
right. USA runs a lot of the Shuttle operations right now and--
--
    Mr. Mollohan. Absolutely under your control.
    Mr. O'Keefe. Yes.
    Mr. Mollohan. All right.
    Thank you, Mr. Chairman.
    Mr. Walsh. Mr. Frelinghuysen.

                     COMMERCIAL SATELLITE LAUNCHES

    Mr. Frelinghuysen. Thank you.
    Mr. Administrator, could you make some brief comments about 
the excessive commercial satellite launchings? I mean, over the 
years we have seen an incredible growth. Do you have some 
comments in that regard?
    Mr. O'Keefe. Certainly there has been an ambitious 
expansion in the commercial satellite business, but not nearly 
as ambitious as I think the industry would have liked it to 
have been. So part of what we have got to reconcile to is, what 
is in the art of the possible from a telecommunications 
standpoint and other drivers of the satellite market to see 
what those requirements might be.

                NASA COLLABORATIONS WITH OTHER AGENCIES

    Mr. Frelinghuysen. Changing gears, I know you collaborate 
obviously with DOD. I also understand you collaborate with the 
Veterans Administration.
    Mr. O'Keefe. Somewhat.
    Mr. Frelinghuysen. Somewhat? I think from what I can 
gather, they have modeled something called their patient safety 
reporting system after one of your aviation--you are aware of 
that?
    Mr. O'Keefe. Yes, sir. It is really an exciting effort. 
There are a couple of limited dimensions, that we are dealing 
with DOD on, that are very fruitful and have worked out 
exceptionally well.
    Mr. Frelinghuysen. Thank you very much.
    Mr. O'Keefe. Thank you, sir.
    Mr. Walsh. That concludes our questions for the witness.
    Mr. Mollohan. Mr. Chairman, I have no questions but Ranking 
Member Hall for the Committee on Science asked permission to 
submit a letter for the record.
    Mr. Walsh. Without objection. Mr. Hall contributes mightily 
to the space aspects of our government and we welcome that.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                       Chairman's Closing Remarks

    Mr. Walsh. We have no further questions. We will submit 
additional questions for the record. We would appreciate it if 
you would respond to those promptly, and it will help us in our 
deliberations as we develop the budget for NASA, as well as the 
other departments within our subcommittee jurisdiction.
    Mr. Walsh. Thank you very much. We look forward to the 
answers.


              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                               I N D E X

                              ----------                              

             National Aeronautics and Space Administration

                                                                   Page
``Pioneering the Future''........................................   104
Administrator O'Keefe's Opening Remarks 
Advanced Engineering Education...................................    71
Aeronautics......................................................   145
Aeronautics Blueprint Vision.....................................    54
Aerospace Engineering............................................    70
Aero-Space Technology............................................   124
Astronaut Corps..................................................    28
Biological and Physical Research.................................   118
BioScience Consortium............................................   147
Budget Justification.............................................   148
Budget Request...................................................    17
Centrifuge.......................................................   132
Chairman's Opening Remarks.......................................     1
Commercial Aircraft Transportation...............................    53
Commercial Satellite Launches....................................    74
Competitive Sourcing.............................................    69
Competitive Sourcing Shuttle Operations..........................    70
Congressman DeLay's Statement....................................    34
Contract Management..............................................    90
Cost Management Reforms..........................................   142
Cost Overruns....................................................    29
Crew Size........................................................    17
CRV and Habitation Module........................................    64
Deep Space Network...............................................   118
Deferred Earth Science Missions..................................    85
Earth Science....................................................   121
Earth Science's Applications Program.............................    86
Earth System Science Pathfinders.................................    85
Education and Training...........................................   133
Environmental Impact Studies.....................................    23
Europa and Pluto-Kuiper Belt Missions............................   116
Europa Cancellation..............................................    83
Extended Duration Capability.....................................    26
Flight Rate ................................................5, 111, 127
Flight Rate Schedule.............................................    72
Generations Initiative...........................................    80
Homeland Security................................................    67
Hubble Servicing Missions........................................    80
Hubble Space Telescope Mission ..................................3, 117
Human Space Flight...............................................   105
Infrastructure...................................................   115
Integrated Space Transportation Plan (ISTP)......................   136
International Partnerships .....................................30, 131
International Space Station......................................   105
International Space Station Program Management...................   101
International Space Station Utilization..........................   147
ISS Research.....................................................   118
ISS Research Contract Terminations...............................    79
Launch Vehicles/Spaceport Technologies...........................    25
Lead Center Concept..............................................    62
Management of the International Space Station....................    61
Materials Science Research.......................................    33
MELFI............................................................   132
Microgravity Research............................................    16
Minority Research and Education..................................    27
NASA Collaborations with Other Agencies..........................    75
NASA Cooperation with China......................................    56
NASA Partnership Program.........................................    28
National Aviation Strategy.......................................    54
National Consortium for Aviation Mobility Process................    61
National Security Issues.........................................    68
National Space Biomedical Research Initiative ..................37, 129
Near-Earth Asteroid..............................................23, 53
New Energy Sources...............................................    38
Nuclear Electric Propulsion......................................    81
Nuclear Power (RTG) Development..................................    83
Nuclear Power Research...........................................    22
Nuclear Propulsion...............................................30, 40
Outsourcing......................................................   141
Power and Propulsion Programs....................................    21
Privatization....................................................   112
Privatization vs. Competitive Sourcing...........................    73
Procurement Practices............................................   141
Program Requirements.............................................    18
Programmatics....................................................   130
Radiation Health Initiative......................................    63
Ranking Member's Opening Remarks.................................     2
Research Maximization and Priorities (REMAP).....................    31
Role of Military in Space........................................   103
Russian Government/Russian Organizations.........................    31
Russian Soyuz....................................................    36
Science and Engineering..........................................    38
Seven-Member Crew................................................    65
Shuttle..........................................................   128
Shuttle Competitive Sourcing.....................................    33
Shuttle Upgrades................................................37, 114 
Small (EMU) Suit.................................................    29
Small Aircraft Transportation System (SATS).................55, 58, 66 
Small Aircraft Transportation System Consortium..................    59
Space Launch Initiative.....................................34, 57, 137
Space Launch Initiative and Shuttle Programs.....................   127
Space Science....................................................   116
Space Shuttle....................................................   111
Space Shuttle Flight Rate........................................   140
Space Shuttle Upgrades Budget....................................    27
Space Station....................................................   127
Space Station Research...........................................    15
Strategic Resource Review........................................   140
STS-110 Crew.....................................................     4
Technical Achievements...........................................    19
Technology Transfer..............................................    55
U.S. Core Complete...............................................     4
Utilization of Shuttle...........................................   113
Workforce Reform.................................................   136
X-38 Program.....................................................    35

                                <greek-d>


</pre></body></html>
